<html>
<title> - [H.A.S.C. No. 111-13] DEPARTMENT OF DEFENSE FUEL DEMAND MANAGEMENT AT FORWARD-DEPLOYED LOCATIONS AND OPERATIONAL ENERGY INITIATIVES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-13]
 
                       DEPARTMENT OF DEFENSE FUEL

                          DEMAND MANAGEMENT AT

                     FORWARD-DEPLOYED LOCATIONS AND

                     OPERATIONAL ENERGY INITIATIVES

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 3, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
51-161                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
NEIL ABERCROMBIE, Hawaii             ROB BISHOP, Utah
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
HANK JOHNSON, Georgia                K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
GLENN NYE, Virginia                  FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        MICHAEL TURNER, Ohio
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
                Eryn Robinson, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Megan Putnam, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, March 3, 2009, Department of Defense Fuel Demand 
  Management at Forward-Deployed Locations and Operational Energy 
  Initiatives....................................................     1

Appendix:

Tuesday, March 3, 2009...........................................    33
                              ----------                              

                         TUESDAY, MARCH 3, 2009
   DEPARTMENT OF DEFENSE FUEL DEMAND MANAGEMENT AT FORWARD-DEPLOYED 
              LOCATIONS AND OPERATIONAL ENERGY INITIATIVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bishop, Hon. Rob, a Representative from Utah, Readiness 
  Subcommittee...................................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Shaffer, Alan R., Acting Director, Defense Research and 
  Engineering, U.S. Department of Defense........................     3
Solis, William M., Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     5

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    39
    Ortiz, Hon. Solomon P........................................    37
    Shaffer, Alan R..............................................    40
    Solis, William M.............................................    58

Documents Submitted for the Record:

    [There were no Documents submitted for the record.]

Witness Responses to Questions Asked During the Hearing:

    Dr. Fleming..................................................    72
    Ms. Giffords.................................................    71
    Mr. Johnson..................................................    72
    Mr. Ortiz....................................................    71
    Mr. Taylor...................................................    71

Questions Submitted by Members Post Hearing:

    Ms. Giffords.................................................    79
    Mr. Ortiz....................................................    77
    Mr. Lamborn..................................................    81
   DEPARTMENT OF DEFENSE FUEL DEMAND MANAGEMENT AT FORWARD-DEPLOYED 
              LOCATIONS AND OPERATIONAL ENERGY INITIATIVES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                            Washington, DC, Tuesday, March 3, 2009.
    The subcommittee met, pursuant to call, at 1:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. This hearing will come to order. And I thank our 
distinguished witnesses for appearing before this subcommittee 
today to discuss energy use and management for military 
operations.
    This hearing builds upon themes addressed in a hearing this 
subcommittee held last year where we considered the Department 
of Defense (DOD) energy use in the context of recommendations 
made by the Defense Science Board Energy Security Task Force 
and the Government Accountability Office (GAO). That hearing 
encompassed all of the Department's energy use, including the 
energy needed for military installations and the energy needed 
to train for and execute military operations. Today's hearing 
provides an opportunity to focus on the management of the 
energy needed for military operations and ways to reduce fuel 
demand at forward-deployed locations.
    In the near future, this subcommittee will also have 
another opportunity to focus on installations, energy policies, 
and initiatives. This also remains of interest.
    Management of operational energy is an important topic 
today, because we have learned through experience that 
delivering fuel to the battlefield imposes a heavy logistical 
burden. In fact, fuel logistics represent up to 70 percent of 
the material the Army ships into battle, according to a Defense 
Science Board report. Forces responsible for providing 
protection to fuel convoys are put at risk and are diverted 
from other missions.
    Although installations have worked for three decades to 
improve their strategy efficiency, weapons platforms and 
tactical equipment historically have been given a free pass. 
But reducing operation fuel demands can enhance the operational 
effectiveness of our forces and save taxpayers' dollars.
    Both the Department of Defense and Congress have begun to 
take steps to address operational energy demands. The 2009 
Defense Authorization Act implements findings of the Defense 
Science Board and GAO by establishing a high-level 
organizational framework for management of the energy needed 
for military operations. While a nominee has yet to be named, I 
look forward to working with the director of Operational Energy 
in the future.
    The 2009 Defense Authorization Act also puts into law a 
Department of Defense initiative to consider fuel logistic 
support requirements in planning requirements, development and 
acquisition process the defense feels as a time line for the 
implementation of this effort by October 2011.
    The Department of Defense is developing by working together 
innovative strategies to enhance the energy efficiency and 
weapons platforms and provide energy solutions for forward-
deployed forces, and today I look forward to hear more about 
these efforts today. I also look forward to hearing about the 
findings and recommendations of the GAO who through their work 
shed additional light on fuel demands by forward-deployed 
forces.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 37.]
    Mr. Ortiz. The chair now recognizes the distinguished 
gentleman from Utah, Mr. Bishop, for any remarks that he would 
like to make. Mr. Bishop.

   STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE FROM UTAH, 
                     READINESS SUBCOMMITTEE

    Mr. Bishop. Thank you, Mr. Chairman. And it is indeed a 
pleasure to be here especially with our two guests who will be 
testifying in just a moment. I look forward to the report as to 
where we have gone. I, like a lot of other people, have a great 
deal of interest in the overall energy issue, especially as it 
relates to the military. Coming from an area where I do, 
obviously synthetic fuels become significant and important. But 
I understand today we are going to simply focus in on the 
different aspect of that, dealing with simply forward 
deployment. And I am looking forward to that.
    On behalf of Mr. Forbes, who is incapacitated right now and 
not able to get here because of weather conditions, I would ask 
unanimous consent to have his opening statement placed in the 
record.
    Mr. Ortiz. It will be placed into the record. And Mr. 
Forbes is a very dedicated servant of the people; but because 
of the storm that we had, he couldn't be with us today.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 39.]
    Mr. Ortiz. Today we have two distinguished witnesses 
representing the Department of Defense and the Government 
Accountability Office. We have Mr. Alan Shaffer, Acting 
Director, Defense Research and Engineering, United States 
Department of Defense; and Mr. William M. Solis, Director, 
Defense Capabilities and Management, United States Government 
Accountability Office.
    Without objection, the witnesses' prepared testimony will 
be accepted for the record.
    Mr. Shaffer, we welcome you and Mr. Solis to this hearing 
today. Whenever you are ready, you can begin your testimony 
today, sir.

STATEMENT OF ALAN R. SHAFFER, ACTING DIRECTOR, DEFENSE RESEARCH 
          AND ENGINEERING, U.S. DEPARTMENT OF DEFENSE

    Mr. Shaffer. Thank you, Chairman Ortiz, members of the 
committee. Thank you for the opportunity to discuss the 
progress the Department of Defense has made in energy security 
for our soldiers, sailors, airmen, Marines, and civilians, as 
well as the nation.
    It is important at the outset to frame energy security in a 
broad context. To be sure, the cost of energy affects the 
overall budget of the Department. In fiscal year 2007, the 
Department spent about $13 billion on energy-related programs, 
up from $11 billion in fiscal year 2005. But energy security 
entails more than just the cost of fuel. The logistics of 
energy resupply affect force security. Energy use affects our 
ability to maneuver and our strategic decisions.
    In the summer of 2006, then- Major General Rick Zilmer, 
commander of the deployed Marine forces in Al-Anbar Province, 
Iraq, issued a joint urgent operational need (JUON) that said, 
``Reducing the military dependence on fuel for power generation 
could reduce the number of road-bound convoys. Without this 
solution, personnel loss rates are likely to continue at their 
current rate.'' End of quote. This JUONs was a wakeup call to 
the reality of irregular military operations.
    In response to the JUONs, the Army Rapid Equipping Force 
established the Power Surety Task Force to determine what could 
be done to address this need. The task force found that there 
were few turnkey-ready capabilities applicable to the harsh 
operating conditions at a forward operating base. While 
maintaining enhanced security awareness, the Department has 
maintained an overriding principle of not subjecting forces to 
greater risk by prematurely deploying technologies that have 
not been proven in field testing.
    A little over two years ago, the Department established and 
operated the Defense Energy Security Task Force, which I have 
had the honor to serve as the executive director. The task 
force has coordinated the growing energy programs and raised 
awareness of energy issues across the Department. Each military 
department has established an energy security focal office.
    In total, the Department's investment in energy security-
related projects has grown from requests of about $440 million 
in fiscal year 2006 to $1.3 billion in fiscal year 2009, not 
including funding in the recently passed American Recovery and 
Reinvestment Act, which provided $300 million to the Department 
for energy-related research and development (R&D).
    Embedded in this investment are a number of projects 
specifically focused on either reducing energy demands or 
increasing energy supply. I will highlight just a few. But I 
have to point out that not all energy solutions are high 
technology. One of our more effective actions to date has been 
to insulate deployed facilities using spray foam, which yields 
energy savings reductions of 40 to 75 percent depending upon 
the environment, compared to noninsulated tents. The additional 
insulation could save as much as 180,000 gallons of fuel per 
day.
    The three-year Net-Zero Plus Joint Concept Technology 
Demonstration (JCTD) sponsored by United States Central Command 
to make forward operating bases as energy efficient as possible 
will conclude in 2010. The Net-Zero JCTD will prototype, 
measure, and assess a variety of technologies that could 
collectively use less energy than they create and be 
recommended for inclusion in all DOD installations and tactical 
bases.
    The Army's Tank and Automotive Research and Development 
Center in Warren, Michigan is leading a ground vehicle fuel 
efficiency demonstrator to test the feasibility and 
affordability of achieving up to 40 percent decreases in fuel 
consumption in tactical vehicles without sacrificing 
performance or capability. The Air Force is developing 
technologies to increase jet engine efficiency. The Navy is 
testing technology to enhance ship fuel efficiency. When you 
put all of that together, it makes the force more efficient for 
the amount of fuel used.
    We are also exploring the use of renewable energy at 
forward locations through testing of generators that can be 
powered by solar or wind energy. The hybrid intelligent power 
generator, also known as high power, is demonstrated in quote/
unquote intelligent power management and the integration of 
renewable energy technologies to reduce fuel and energy 
consumption in tactical and deployed operational environments.
    Defense Advanced Research Projects Agency (DARPA) has 
recently initiated a $100 million program to further develop an 
affordable algae-based synthetic fuel, with the goal of driving 
the cost to $2 per gallon in 18 months, and allow it to be made 
locally.
    The Army and Navy are developing and demonstrating compact 
and mobile 10 kilowatt high-temperature fuel cells to power 
critical equipment, including GPS receivers, radio and 
communications equipment, and other deployed electronics.
    DOD has made progress in integrating energy considerations 
into our business processes, requirements development, 
acquisition, and budgeting, and we focused on describing energy 
operations by the return on investment, both financially and in 
terms of operational capability. For instance, in November 
2008, the DOD Acquisition Directive, also known as 5000.2, 
directed energy costs be included in calculations for total 
ownership costs, to include the fully burdened cost of fuel, 
the cost to deliver fuel the last tactical mile.
    Through the Energy Security Task Force, the DOD has 
developed a DOD Energy Security Strategic Plan, providing a 
framework for energy management across the enterprise, with 
four Deputy Secretary of Defense-approved strategic outcomes, 
they are: maintain or enhance operational effectiveness by 
reducing total force energy demands, the subject of our hearing 
today; increase energy strategic resilience by developing 
alternative or assured fuels and energy; three, enhance 
operational and business effectiveness by institutionalizing 
energy solutions in DOD planning and business processes; and, 
four, establish and monitor Department-Wide energy metrics.
    In summary, the DOD has proactively responded to the energy 
challenge. We have initiated numerous demonstrations in other 
projects to reduce consumption and increase assured 
alternatives for our installations and forward-deployed 
tactical locations. Technologies that make good business sense 
both financially and operationally are being developed for 
implementation on a wider scale.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    [The prepared statement of Mr. Shaffer can be found in the 
Appendix on page 40.]
    Mr. Ortiz. Mr. Solis, whenever you are ready. Good to see 
you again, sir.

 STATEMENT OF WILLIAM M. SOLIS, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Solis. Thank you. Chairman Ortiz, Ranking Member 
Bishop, members of the subcommittee, I appreciate the 
opportunity to be here to discuss DOD's efforts to reduce fuel 
demand at forward locations. Of particular interest are those 
locations not connected to local power grids and therefore must 
rely on fuel-powered generators for electricity. The U.S. 
military has several hundred such locations in Iraq and 
Afghanistan today.
    In 2008, DOD supplied more than 68 million gallons of fuel 
each month, on average, to support U.S. military forces in Iraq 
and Afghanistan. In fact, DOD reported last year that fuel 
demand for these operations is higher than for any war in 
history.
    While weapons systems such as aircraft, Mine Resistant 
Ambush Protected vehicles, and trucks certainly require large 
amounts of fuel, DOD reports that the single largest 
battlefield consumer is generators, which provide power for 
base support activities. By base support activities, I am 
referring to things such as air conditioning, heating, 
lighting, refrigeration, and communications, all necessary to 
support the troops that are stationed at these forward-deployed 
locations.
    However, transporting large quantities of fuel to forward-
deployed locations presents an enormous logistical burden and 
risk. Large truck convoys moving fuel to forward locations in 
Iraq and Afghanistan have encountered enemy attacks, severe 
weather, traffic accidents, and pilferage. Moreover, the cost 
of fuel has greatly fluctuated over the last several years, and 
high fuel costs will continue to be of concern.
    Today I will summarize our recent work on fuel demand at 
forward locations. We are also releasing our full report in 
conjunction with this hearing. First, let me address some of 
DOD's ongoing efforts to reduce fuel demand at forward 
locations. Mr. Shaffer covered some of these in his statement, 
so I will briefly note three specific efforts.
    A notable effort, as he mentioned, is the application of 
foam insulation on tents. Applying foam reduces the amount of 
fuel required by generators to provide power to these 
structures. Demonstrations show that the application of foam 
insulation reduces dust, heat, cold and noise, as well as air 
conditioning requirements. While at Camp Lemonier in Djibouti, 
we were able to see a tented gymnasium that had been foamed. 
According to camp officials, they were able to remove two of 
the five air conditioning units used to cool the gymnasium. 
This resulted in an estimated fuel savings of 40 percent and a 
reduction of indoor temperature from about 95 to 100 degrees 
Fahrenheit to about 72 degrees.
    As this example illustrates, foaming tents, in addition to 
fuel savings, also improves the quality of life for troops 
serving in harsh environments. At the time of our review, DOD 
was pursuing foam insulation on a wide-scale basis in Iraq, and 
had plans to pursue this initiative in Afghanistan as well.
    A second effort is the development of microgrids at the 
forward-deployed locations. Essentially, this effort 
consolidates small loads on generators by creating groupings of 
multiple generators. At Camp Arifjan in Kuwait, we learned of 
plans to create such microgrids, with the expectation that this 
effort would improve overall energy efficiency and reduce the 
number of generators that operate most of the times of the 
year.
    Lastly, DOD and the military services have a number of R&D 
efforts underway. For example, the Air Force Lab has created a 
renewable energy tent city, a collection of various deployable 
shelters powered by solar and fuel cell generators. There are 
also DOD efforts to develop more fuel-efficient generators and 
environmental control units. However, since many of these 
efforts are in the R&D stage, the extent to which they will be 
fielded and under what time frame is still uncertain.
    Now I will turn to DOD's approach to managing fuel at 
forward-deployed locations. While the efforts I have 
highlighted show potential for achieving greater fuel 
efficiency, DOD still lacks an effective approach to fuel 
demand at forward-deployed locations. The Department recognizes 
that it needs to reduce its dependence on petroleum-based fuel 
and the logistics footprint of its military forces as well as 
reducing operating costs with high fuel usage. However, DOD 
faces difficulty in achieving these goals because managing fuel 
at forward-deployed locations has not been a departmental 
priority, and its fuel reduction efforts have not been well 
coordinated or comprehensive.
    More specifically, our work revealed three shortcomings:
    First, DOD lacks guidance directing forward locations to 
address fuel demand, as well as specific guidelines that 
incorporate fuel demand reduction and construction, 
maintenance, and procurement policies. DOD generally lacks 
guidance that directs forward-deployed locations to manage and 
reduce their fuel demand at the Department level, combatant 
command level, and military service level.
    While DOD is driven to address energy issues at U.S. 
installations, largely by Federal mandates and DOD guidance, 
agency officials were unable to identify guidance for forward-
deployed locations, and they told us that fuel reduction in the 
past has been a low priority compared with other mission 
requirements.
    Second, DOD lacks incentives and viable funding mechanism 
for locations to invest in fuel reduction initiatives. 
Officials at Camp Lemonier, for example, had identified several 
projects that would reduce camp fuel demand, but they saw 
little return on investment for them to undertake some 
projects, because they would not see the associated savings for 
other uses toward the camp improvements. Moreover, many of 
DOD's forward-deployed locations rely heavily on supplemental 
funding appropriations related to the Global War on Terror 
(GWOT), and delays in receiving this funding can present 
challenges in covering existing costs.
    Third, DOD lacks visibility and accountability within the 
chain of command for achieving fuel reduction. DOD's current 
organizational framework does not provide departmental 
visibility for fuel demand at these forward locations.
    We found that the information on fuel demand management 
strategies and reduction efforts is not shared among locations, 
military services, and across the Department in a consistent 
manner. Moreover, DOD guidance does not designate any DOD 
office or official as being responsible for fuel demand 
management at forward locations, nor could we identify anybody 
specifically accountable for this function.
    Our report contains several recommendations that we believe 
can help DOD address these issues and provide for a more 
effective approach to managing fuel demand at forward 
locations. In this regard, we see important roles for the 
combatant commands, the military services, joint staff, and 
DOD's operational energy director, once this individual is 
named. DOD generally concurred with the recommendations in our 
report.
    Finally, we recognize it may not be practical for DOD to 
decrease fuel usage at every deployed location, and commanders 
must place their highest priorities on meeting mission 
requirements. However, DOD's high costs, operational 
vulnerabilities, and logistical burdens in sustaining deployed 
locations that depend heavily on fuel-based generators 
underscore the importance for the Department to give systemic 
consideration to incorporating fuel demand into policy 
decisions for forward-deployed locations.
    The issues surrounding fuel demand take on added 
significance when considering recent developments in 
Afghanistan. As you know, the administration recently announced 
its intention to boost U.S. military presence in Afghanistan, 
deploying several thousand troops above the current levels 
starting later this spring. Many of these troops are likely to 
be deployed at forward locations, some of them remote, that 
rely extensively on fuel-powered generators, which in turn will 
drive up fuel demands. That will place even greater demands on 
the fuel logistics system, heightening the associated burdens 
and risks that I described earlier. Therefore, it is time for 
DOD to proactively and systematically manage fuel demand at 
forward locations.
    Mr. Chairman, that concludes my statement. I will be happy 
to answer any questions.
    [The prepared statement of Mr. Solis can be found in the 
Appendix on page 58.]
    Mr. Ortiz. Thank you very much for both of your 
testimonies. It is very enlightening. Not that I am surprised, 
but I see where we really used a lot of fuel, and the thousands 
of gallons that some of this equipment uses.
    And Mr. Shaffer, the GAO report notes that long truck 
convoys moving fuel to forward-deployed locations have 
encountered enemy attacks and severe weather, traffic 
accidents, and pilferage. As DOD begins to increase troop 
levels in Afghanistan, how will it ensure that fuel delivery 
challenges will be addressed? And I think this is very, very 
serious, because to add 30,000 more soldiers--and this is what 
we anticipate will happen--now, what steps are being planned to 
decrease fuel demand at forward-deployed locations in 
Afghanistan so that the risk associated with high fuel usage 
and delivery can be reduced? Maybe you can help us understand 
that a little bit better.
    Mr. Shaffer. Mr. Chairman, thank you for the question. I 
wish I had what would be a better answer for you. What we have 
found as we have gotten into this whole area of deployable 
energy is that a number of the systems don't work as well as we 
had hoped that they would in a forward-deployed location. So we 
are still at the research and development, and advanced 
research and development phase. Now, that is not to say that 
we, the DOD, are making the systems, but we have to harden the 
systems and understand how they will operate. And let me give 
you a case in point, because we talked about generators, sir.
    Right now, the Army has a program called Advanced Medium 
Mobile Power Systems. It is their medium-scaled generator. A 
forward-deployed operating base battalion has about 24 60-
kilowatt generators deployed with that forward operating base 
(FOB). No one would like to get more efficient generators than 
we, the Department, would. In fact, the report that you cited 
from the Defense Science Board showed that under wartime 
conditions, the amount of fuel we use for generators jumps up 
to about 370 million gallons per year for the ground Army 
alone.
    This Advanced Mobile Power Station, the new generator, will 
cut the energy use between 10 and 20 percent. In a full wartime 
scenario, we are estimating reducing the fuel used by 52 
million gallons. In fact, the program manager for that program 
is sitting in the back here, Colonel Wallace.
    Now, the easy question would be, why don't we just deploy 
commercial systems? Because the integrator for this particular 
generator set is Cummins Manufacturer in Minnesota, and they 
make a pretty good commercial generator. But the commercial 
generators don't worry about electromagnetic interference. And 
if we bring the generators out to the field and they have a 
high degree of EMI, electromagnetic interference, that could 
affect the radio communications and other things in the forward 
operating base. So a lot of the little harsh realities of a 
forward operating base that don't apply to a commercial system 
apply to some of our forward-deployed locations.
    We are pushing just as hard as we can to develop some of 
these technologies, Mr. Chairman. But, again, we go back to the 
overriding first principle is we want to make sure that we test 
things so we don't have unintended consequences that decrease 
our capability.
    This advanced mobile medium power station or power system 
is being delivered on a fairly accelerated delivery schedule at 
Aberdeen Proving Grounds starting in June of this year, will go 
through about a one-year full-up test, testing the EMI and 
other things and other operability and conditions, and we look 
to start fielding these systems in 2010, not as fast as we 
would like to, but we don't want to field systems before we are 
sure that they won't cause additional problems. That is 
fundamentally where we are at, sir.
    Mr. Ortiz. You know, and when we move the 30,000 troops to 
Afghanistan, it is going to be harder to make this delivery. 
The terrain is different, it is getting a little worse in that 
area. But how soon will it take for you to have some of this 
equipment that you are talking about? I know you say you are 
going to start sometime in June, July testing this equipment. 
How long do you anticipate it will take before you can say, 
well, this equipment is going to work?
    Mr. Shaffer. Sir, we are going to go on the very fastest 
test protocol that we can, but I can't give you a specific time 
line. They do have to make sure that these things work.
    I would like to point out some other things that we are 
doing. We mentioned the spray foam. That was an idea that came 
out of the Power Surety Task Force that started up in response 
to General Zilmer's JUONs. We have subsequently moved oversight 
of the Power Surety Task Force under the Office of the 
Secretary of Defense (OSD) to work for everybody. And there are 
plans right now to begin spray foaming tents in Afghanistan, 
and we are just working through the contractual operations of 
who is going to put the spray foam on the tents. But we put 
spray foam on the tents in Afghanistan, and that will reduce 
the overall heating required or the cooling required for our 
troops in summer and also heating in winter.
    It is a fascinating thing, Mr. Chairman. We have the spray 
foam set up and have tested it at Fort Irwin National Military 
Training Center, and I had the opportunity to be out there last 
August. You would go up and touch the side of the tent, and the 
temperature on the skin of the tent was about 130 degrees, 135 
degrees in the direct sunlight. You would go inside one of 
these tents that was foamed, and the temperature would be about 
75 to 80 degrees. Now, it is not very often I am looking for a 
jacket at 75 or 80 degrees; but when you are out in 105 or 110 
degrees and you walk into something cool, you feel refreshed.
    This is what we have to do for our troops. By spray foaming 
the tents, by bringing the temperature down, by bringing the 
electric demands down, we believe we will give a better 
fighting force that is more refreshed also. So there is a lot 
of variables at play.
    I can't tell you exactly when we will have things in place 
in theater, sir, but we are moving and pushing just as fast as 
we can to get things out there as they are developed, as they 
work. We accelerated the spray foam in Iraq, and it turned out 
we had a local contractor who could not perform the mission. 
That first contract was terminated. We are looking to pick up 
the contract to pick up the rest of the tents. But, again, as 
fast as we can get things out there that will hold up, sir, we 
will get them to the field.
    Mr. Ortiz. Thank you. I would ask a question for Mr. Solis, 
and then I would yield to my good friend Mr. Bishop after my 
question.
    The GAO report states that DOD lacks a viable funding 
mechanism for fuel reduction projects at forward-deployed 
locations. In commenting on the GAO draft report, DOD stated 
that it was not convinced financially incentives were the best 
fuel-reduction strategy for forward-deployed locations. Why 
does GAO believe that funding is an issue, and what are some 
examples of viable funding mechanisms for energy-efficiency 
projects at forward-deployed locations, Mr. Solis?
    Mr. Solis. Thank you for the question. I think what we are 
talking about there is that a lot of the funding for these 
installations in the forward-deployed locations rely on 
supplemental funding, and some of those priorities don't 
necessarily meet up with the kinds of investments that you need 
as we have talked about here in terms of other types of more 
efficient generators, those kinds of things.
    The other things, in terms of incentives, in terms of 
financial incentives--and it is not exactly the same kind of 
thing. One of the things that we talked about is the Navy has a 
ship program, for example, that provides incentives for ship 
commanders that if they make certain improvements, that some of 
that money can be used elsewhere in terms of other ship 
improvements. So savings then can be allocated to other uses on 
that ship.
    The other thing in terms of a financial mechanism, you 
know, for example, one of the things that we saw related on 
corrosion projects is that this, again, is something where you 
have something that a commander may not put as a priority; but 
in terms of long-term investment, in terms of saving dollars, 
that is something where we saw if there is a program element, a 
funding line, a separate funding line, that that commander can 
draw from without necessarily affecting their mission, I think 
that goes a long way in terms of providing that commander with 
alternatives for funding without necessarily affecting their 
mission.
    Mr. Ortiz. My follow-up question would be, I know that we 
put something like $300 million to do some of this research. Do 
you think that is a sufficient amount of money? Because it 
seems to be that there is going to be a lot of testing 
different equipment.
    And this is for both of you. Do you think, is that 
sufficient money to do what we want to do so we can keep our 
soldiers from being in harm's way, to protect them during the 
winter and during the summer?
    Mr. Shaffer. Chairman Ortiz, first, in the Recovery Act we 
are very, very pleased to have the $300 million. As we have had 
the Energy Security Task Force in place--and I mentioned that 
we had the senior representatives from each of the services, a 
focal office--we have coordinated that investment, the $300 
million across the services to try to get the maximum out of 
it. I can't tell you if $300 million is right or is not right. 
I know that we have $300 million of valid, viable projects that 
will support the Department both in reducing our energy demand 
forward, but also reducing our energy demand here at our 
installations in the continental United States (CONUS).
    So there are a number of things that are getting close to 
being developed and close to ready, but not quite there yet. So 
there will be a lot of testing going on. Three hundred million 
dollars, we think we will be able to spend that wisely.
    Mr. Ortiz. Mr. Solis.
    Mr. Solis. If I could give you an answer. And I am not 
going to say whether that is the right amount of money; but 
here I will go back to the recommendation that we made in terms 
of the need for a Director of Operational Energy.
    That person would also be involved in looking at, across 
the board, what are the funding requirements that are needed to 
try to deal with some of the issues that we are talking about 
today? Right now, every service is sort of doing their own 
thing. You don't really have visibility across the board. So I 
would say that somebody, and hopefully the Director of 
Operational Energy, once that person is named, could be that 
person that would look across the board to see what are the 
funding requirements. Much like, again--and I refer back to 
what the corrosion office did, is look across the board: What 
makes sense? What are going to provide the greatest returns on 
investment? What is going in this case to reduce our logistics 
footprint? What is going to take those tankers off the road?
    So I would go back and say that until that person is there, 
I think it is going to be very difficult to see, across the 
board, whether or not $300 million is sufficient, $500 million, 
or $1 billion, until that person is there.
    Mr. Ortiz. Thank you so much. My good friend, Mr. Bishop.
    Mr. Bishop. Thank you. Let me follow up on that individual, 
that person--questions about that, in just a second. But let me 
start, first of all, with Mr. Shaffer.
    In both your testimony as well as Mr. Solis' testimony, 
both written and oral, talked about how fuel reduction is a 
lower priority when you are out in the front lines. I can kind 
of understand that. But you also talked about the funding 
process as a difficulty. And I would simply like to say 
forward-deployment locations are almost always funded through 
supplementals.
    So I guess the question would be, how can DOD ensure these 
kind of energy-efficient programs or projects are going to be 
adequately resourced when you give the uncertainties that are 
always maintained with supplemental funding for these issues?
    Mr. Shaffer. That is a very good question, Mr. Bishop. Let 
me start by saying the operational employment of systems will 
be funded by supplemental. But the Department as a whole has 
recognized over the last couple of years that we have had the 
task force in place that we do need to have--and because of 
operational concerns, we do need to invest more in developing 
maturing--and rapidly, by the way, I should say--rapidly 
maturing technologies to reduce our forward-deployed energy 
footprint.
    And I know, I read the GAO report about what the Director 
of Operational Energy Plans and Programs would do.
    I will tell you that through the Energy Security Task 
Force, we do have an active running visibility and spreadsheet 
into what the Department is investing for energy security at 
large. It is about $1.3 billion in fiscal year 2009. A large 
chunk of that--and I can't give you the exact percentage--but a 
large chunk of that is focused specifically on maturing those 
technologies needed to bring down our forward-deployed energy 
footprint either at a forward operating base, or with some of 
our tactical platforms that move forward.
    So we do have visibility. I think the Department has looked 
at it in the base budget by tripling the base budget investment 
and maturing new technologies in the last three years. And 
then, when it gets to operational employment, there will be 
some supplemental dollars that will help that along. But for 
things like the advanced mobile generator that I was talking 
about just recently, the Army recognized that need and has put 
it into their program as a program of record. They are 
scheduled in total to field 67,000 sets beginning late in 
fiscal year 2010, 2011. And that will be part of the standard 
table-of-equipment allowance to every forward brigade team and 
battalion team.
    So it is a mixture. We are injecting new energy-efficient 
technology solutions into our force, because it makes our force 
more operationally capable. As far as the incentives to 
forward-deployed troops, that is through supplementals.
    But at the end of the day, the reason the Department came 
back and partially concurred with the GAO finding about 
incentives and financial incentives, forward-deployed troops, 
the best incentive is you have a better fighting force and you 
have a better chance of bringing troops home alive. Operational 
energy efficiency will give that incentive to forward 
commanders, and that is an incentive that money doesn't begin 
to match.
    Mr. Bishop. And I appreciate that last particular point, 
and obviously that is why the prioritization has to be there. 
What I guess I am hearing from you--and correct me if I am 
wrong with this--is what we are really talking about is not 
necessarily a systemic change in the way money would be 
allocated in the base, but rather the amounts of money that 
would be allocated to different line items that currently are 
there.
    Mr. Shaffer. Yes, sir. I think that is an accurate 
assessment.
    Mr. Bishop. On one of those other areas. In the last 
authorization bill that was passed there was the position of 
the Director of Operational Energy Plans that was required as 
part of that legislation. Could you just tell me what the 
status of the Department's efforts are on that particular 
position?
    Mr. Shaffer. Sir, that particular position is nominated by 
the President and confirmed at the consent of the Congress. We 
have not gotten down, we the Department have not gotten down to 
nominating that position right now. I can't tell you where the 
administration is in their process of nominating that position. 
I do know it reports directly to the Secretary, and it is an 
important position. But I can't tell you where we are with 
regard to that particular nomination right now.
    Mr. Bishop. But with the change of administration, has the 
new administration signaled its intent to establish that 
position, or is that still not necessarily--has not been 
decided yet?
    Mr. Shaffer. Sir, I don't think that there is any question 
about whether or not the position will be created. It is in 
law, and therefore the Department will take a look at that. I 
have heard no one say that we, the Department, are not going to 
create this position.
    Mr. Bishop. All right.
    Mr. Solis. Sir, if I could only add to answer part of your 
question. I believe Secretary Gates did say or indicate that 
they were going to name somebody for that.
    Mr. Bishop. Let me ask one last question. And you mentioned 
very briefly as far as the kinds of incentives when you are 
dealing in a forward. How does DOD intend to address the issue 
of measuring fuel consumption in these forward-deployed 
locations, which once again has to be probably not the number 
one priority at that time, but how do you actually implement 
and come up with legitimate information and data?
    Mr. Shaffer. Sir, that is one heck of a question. It is a 
very good question, one I kind of hoped you weren't going to 
ask today.
    Mr. Bishop. All right. I will take my time back and you 
don't have to do it.
    Mr. Shaffer. What I will tell you is that in the Energy 
Strategic Security Plan that we have put together, the fourth 
of the four goals was to develop an effective set of metrics 
for measuring energy use both in garrison and deployed. We are 
not there yet, sir, and that will be a very important task for 
the new Director of Operational Energy Plans. And I would 
suggest that that would be one of the most important things 
that person could do.
    Mr. Bishop. Thank you, sir. I appreciate it.
    Mr. Ortiz. My good friend, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, gentlemen, I think it is very timely what you are 
doing. We had the Transportation Command in just last week, 
telling us about the 10-day transit just through Afghanistan, 
to get a gallon of anything from the port of Karachi to the 
Afghan border. So I think it is very timely.
    A couple questions. Whose job is it on a base or in a 
region, whose job is it to try to minimize the amount of fuel 
that is used, without affecting operational capabilities? I am 
very, very impressed with your 26 million gallons per month 
just with the generators. I was wondering if you have further 
broken that down. For example, how much of that electrical 
capacity is used to heat water? Do you have any idea?
    Mr. Shaffer. Sir, I do not have that particular. Let me 
take that for the record and go back and see if we can find 
that out.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Taylor. The reason I am asking is I think I supplied 
you gentlemen or someone at the GAO with products that are 
commonly available in the private sector used extensively on 
boats, where they use the radiator cooling fluid, the heat that 
is generated in that engine, to both heat water and to heat 
spaces. And I realize that the water is a lot easier to 
transport through pipes than it is that warm air. But I would 
imagine a pretty significant amount of the energy that is used 
is heating water during the wintertime in Iraq and Afghanistan 
where most Americans don't realize it gets pretty doggone cold 
out there. So I was curious if anyone has looked into that, 
because that is existing technology about Raritan and other 
companies.
    The second thing is, do you actually have a statistic as 
far as fuel demand per GI?
    Mr. Shaffer. Sir, if I can, first, let me on the first 
point that you have made--and I will make this pledge to you. 
In going through some of the background material for this 
hearing, I came across the bullet that said that last year you 
had asked about, I think, about the heat exchanger.
    Mr. Taylor. Right. They use a heat exchanger for water, a 
radiator-type device for heating a space.
    Mr. Shaffer. I do not know that anybody has done that. What 
I will pledge to you, sir, is we will have the Power Surety 
Task Force take a look at that and see how that could fit into 
our Net-Zero Joint Capability Technology Demonstration and some 
of the other testing things, and we will give it a fair 
hearing.
    Mr. Taylor. I want a specific response to what percentage 
of that is used to heat water.
    Mr. Shaffer. Yes, sir.
    Mr. Taylor. Because I am guessing it is significant.
    Mr. Shaffer. Yes, sir. We will find that information out.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Taylor. And I would like a specific response. I came to 
a calculation of about 18 gallons per GI per day. Is that 
anywhere near--that would be total force divided into total 
gallons. Total deployed force divided by total gallons.
    Mr. Shaffer. Yes, sir. I think that I have seen different 
figures ranging anywhere from about 8 gallons per deployed 
force member up to around 18. So depending on how you look at 
it, somewhere in that range. But, again, this gets back to the 
questions by Mr. Bishop. We don't have the right set of metrics 
right now to fully understand the problem.
    Mr. Taylor. Well, going back to my question. And the very 
real, not just the trucks that are lost, not just the fuel that 
was lost, but to the best of my knowledge thus far, 135 drivers 
who have been killed just transiting Pakistan. This is very 
real. If you can reduce the number of trucks on the road, you 
are reducing casualties.
    So the question is, whose job is it, within the restraints 
of an operational zone where combat comes first, whose job is 
it to try to reduce that demand in a way that does not diminish 
the combat effectiveness of that forward operation location?
    Mr. Shaffer. Yes, sir. At the end of the day, it is always 
the commander's job. And that is why Major General Zilmer sent 
out the JUONs.
    The actual fuel handling is done by the logistician. And 
there is the combination of operational commanders, the G4s, 
the J4s, the civil engineers, and the Defense Energy Supply 
Center. But the specific--at the end of the day, sir, the 
specific responsibility is with the deployed commander.
    Mr. Taylor. Who in the DOD, as different vendors come to us 
and say, I have got something, this oil additive, this fuel 
additive will improve your productivity, who in the DOD 
actually tests those products to see if they are for real?
    Mr. Shaffer. Sir, it depends upon the specific technology. 
But the fuel additive is--we have actually turned some of those 
pieces and some of those fuel additives over to the Tank 
Automotive Engineering Research Development Engineering Center 
at Warren, Michigan, and they actually have a cell there that 
tests some of those fuel additives to see if they work, if they 
work over a long period of time, if they foul the equipment at 
all. And that is the right place, because that particular 
center is then looking to inject those particular capabilities 
into our ground fleet.
    Within the Navy, the testing is done primarily over at the 
Naval Ship Center, Carderock, or Navy Research Laboratory.
    So we do have people who do test the various pieces of 
equipment, but it would vary depending upon which gear it is.
    If you ever have any questions, sir, you can go ahead and 
have your staff send it to me, and we will make sure that 
someone takes a hard look at it; because if we can deploy 
something--you mentioned 135 soldiers killed. If we can deploy 
something that will save one American's life----
    Mr. Taylor. Well, clarification. Those were contract 
drivers.
    Mr. Shaffer. It doesn't matter. An American is an American 
first.
    Mr. Taylor. They are still human beings.
    Mr. Shaffer. So if we can reduce casualties in any way, 
sir, that is something we are pledged to do.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    I have a question, please, about the Tactical Garbage to 
Energy Refinery. Two units were deployed in May of 2008 I think 
for a 90-day demonstration and pilot program. Could you please 
update us about how that turned out? Was it successful? And, if 
so, are we going to see more of that? Obviously that helps 
where we don't have to have as many convoys who are going to be 
having to transport garbage.
    Mr. Shaffer. Yes, ma'am. I wish I could tell you that they 
had worked as well as advertised. They did not. We deployed 
them, as you said, for 90 days. The goal was to operate this 
system for 20 hours a day at a forward operating base with a 
battalion. We made the assumption that it would be 4 pounds of 
trash per person per day, 500 people deployed, so that would be 
about a ton of fuel a day, or a ton of trash. That ton of trash 
should have turned into 100 gallons of JP-8, which would fuel a 
60-kilowatt generator for 20 hours. Unfortunately, the harsh 
operational forward setting, we couldn't get that many hours a 
day out of that particular rig. We were only getting on order 
sometimes four to six hours a day of operation before the dust 
and dirt and everything would cause it to stop operating.
    What I can tell you is that we did see promise. And, in 
fact, we have seen promise in these garbage-to-energy 
converters in fixed locations. So, actually, on February 18 and 
19 at Aberdeen Proving Grounds, the Army called together a 
group of people to take a look at how do we move to the next 
step? How do we harden some of these--they are called tactical 
garbage-to-energy refinery (TGER) systems--so they can be 
deployed and actually reduce some of our energy demand?
    Now, at a forward-operating base, we looked at operating 
one 60-kilowatt generator basically per day. A battalion size 
FOB has about 24 generators per day of that size. So it is 
going to be just a small reduction, but it does other things. 
Instead of producing energy, if we can get rid of a ton of 
trash a day and turn it into something useful, that is very 
important, because that increases the security of our forces. 
We don't have to use our forces or contracted forces in 
guarding trash. We don't have to have them doing the security 
details.
    So there are so many operational advantages. And it goes 
back to our primary principle: We want to deploy anything we 
can that gives us energy efficiency, provided we at least 
maintain our operational capability. Garbage to energy, that 
particular system would increase our capability.
    Ms. Shea-Porter. And will you put more money, more R&D 
money into that?
    Mr. Shaffer. I have to see if this is an R&D or an 
engineering problem, ma'am, so I do not know. Let me take that 
for the record and go back and talk with the team who pulled 
together at Aberdeen.
    Ms. Shea-Porter. I would appreciate that. And I yield back. 
Thank you.
    Mr. Ortiz. Mr. Kissell.
    Mr. Kissell. Good afternoon, gentlemen. I appreciate your 
being here today.
    Mr. Shaffer, just a couple numbers I had written down, and 
I am not sure I got them correctly. The total amount of money 
we spend on fuel per year, the Department of Defense?
    Mr. Shaffer. Sir, which year? Because of the escalating 
costs, we have been all over the place. The last full year we 
have numbers for is 2007; and in 2007, we spent about $13 
billion.
    Mr. Kissell. That was the number I had written down. Now, I 
wrote down also $1.3 billion in research for alternative 
energy. Was that the right number?
    Mr. Shaffer. It is more than alternative energy, sir. It is 
$1.3 billion in energy security-related projects across the 
Department. That involves also doing some of our installation 
research and testing. So it is alternative fuels, platforms, 
and installations.
    Mr. Kissell. And I know this question is going into, 
instead of--I know the fluctuations in how much energy cost. 
But the overall amount of energy, the fuel that we are using 
just in gallons or whatever measure we use, is it holding 
steady? Is it going up significantly? Or have any of these 
improvements started bringing it down?
    Mr. Shaffer. The last year we have good numbers for, sir, 
is 2007. And, basically, in about the last five to seven years 
we have had about a six percent decline in overall energy use 
in the Department.
    At our installations, the decline has been even more 
dramatic. So we have declined even more. So even though we have 
been forward deployed fighting a war, right now our energy use 
is slowly coming down.
    Mr. Kissell. Do we have any goals in that regard toward 
what we are trying to get it down to?
    Mr. Shaffer. No specified goals. On the installation side, 
sir, we do. We have the published goals of the Energy Security 
Act and other things. So we do have goals on the installation 
side.
    We don't have any firm goals on the tactical side, and we 
could be criticized for that, but it becomes very difficult on 
the tactical side because so much is dependent upon the type of 
operation you are employing, how much maneuver you are doing, 
what situation, where you are deployed. Deploying to Iraq and 
air conditioning tents in summer takes a lot more energy than 
deploying to someplace where it is a temperate region. So I 
would like to tell you we have good metrics, sir, but we do 
not. We probably need to get better metrics. But we don't have 
specified goals other than down.
    Mr. Kissell. How close or what do we need to do start 
getting those better metrics, because that is something you 
mentioned three or four times.
    Mr. Shaffer. I honestly think, and I mentioned this earlier 
in my remark to Mr. Bishop, I believe that getting a good set 
of metrics that help us understand the situation should be one 
of the higher priorities of the new Director of Operational 
Energy Plans. That is in the statute. It is a very, very 
important step to improving our overall capacity and capability 
in the Department. Short of that, the development of metrics 
will be pretty much at the joint staff level, and they are 
unfortunately right now extremely busy.
    Mr. Kissell. I would agree with you. Mr. Solis, you had 
mentioned that we lacked--maybe having this as a priority for 
energy efficiency, maybe we lacked guidance in how to come 
about this, and in listening to you guys talk today, I find 
myself the mixture of excitement at the possibilities of 
improvement and the mixture of frustration that maybe we don't 
have the guidance. Do we need that Director to get the 
guidance, or is that something that could come from somewhere 
else?
    Mr. Solis. One of the recommendations that we made is that 
there does need to be better guidance that is provided by the 
combatant commanders. Mr. Taylor asked about who was in charge, 
and right now there really is no guidance that comes down from 
a combatant commander that talks about reducing energy fuel 
demands at forward locations. That is across the board. And 
there is also nothing there in terms of the military services 
in terms of fostering that kind of look-see. So I think there 
is that lack of guidance, and I think that is something that as 
a starting point would help improve the management and emphasis 
in priority that has looked at fuel demands at forward 
locations.
    I would also mention to you, we talked a little, or you 
mentioned a little, about metrics as well. I would also offer 
first off what you need to do in terms of not only goals is to 
look at, and what we tried to do in our report, is what is 
actually happening at some of these foreign locations. Not 
surprisingly, if you look at Bagram, a lot of the fuel goes 
towards air and weapons systems. But if you look at a lot of 
the other locations that we looked at in Djibouti and Iraq, a 
lot of that--and when I say a lot, more than 50 percent, 
sometimes 60, 70 percent is going towards base operations. So I 
think if you look at how, where you are burning your fuel, how 
you are burning your fuel, I think that then can also help you 
decide what investments you are going to make.
    So I think you need guidance. You need to understand what 
you are doing at these locations so then you can better tailor 
what your investment approach would be.
    Mr. Kissell. And one last question, and it goes to what you 
just said. If I read through this correctly, the Air Force and 
our aviation uses the majority of our fuels; is that correct?
    Mr. Solis. That is correct.
    Mr. Kissell. And we have been talking about a lot of 
forward-based ideas. So it would seem in what you just said 
that if the Air Force is using the majority of the fuels in 
operational bases, do we have kind of meaningful programs there 
for reducing and improving, and is that working?
    Mr. Solis. Let me go back. Certainly the Air Force is 
burning a lot of fuel, it uses a lot of fuel. But as I 
mentioned before, if you go to look at some of these forward-
operating locations, the predominant use of fuel is for base 
operations, not necessarily for the weapons systems or for the 
aircraft.
    I believe that the Air Force is looking into different 
things in terms of I think there is a synfuel initiative that 
they have; there are other things that they are doing, as far 
as I understand, to try to reduce their use of fuel. They have 
just come out with a strategic plan. We haven't evaluated it. 
But there are other things that they are trying to do in terms 
of looking at the weight of their aircraft, flying direct 
distances and a number of other things. I don't know if Al has 
any more information, but they have come out with a strategic 
plan to look at how they reduce their fuel consumption in their 
aircraft.
    Mr. Shaffer. Yes, sir. And let me take a very short answer 
at your question, also.
    Because the Air Force uses more energy, more fuel than our 
other services, they recognized, I think, a little bit ahead of 
the other services the need for energy security. So the Air 
Force has been serious about this business for the last three 
to four years. They have a number of projects, in addition to 
the synfuel project, to increase their energy efficiency. They 
are looking at--and this is going to sound silly--they are 
looking at winglets on the ends of some of their transporting 
aircrafts. Those are, if you look out at your commercial 
aircraft--those are the struts that go up. Well, under certain 
circumstances winglets can increase your energy efficiency, 
your mileage, by 10 percent. That is significant. We have to 
test it to make sure it doesn't cause any capability loss for 
some of our fighting force. But the Air Force is serious about 
that.
    The Air Force has also recast their turbine engine research 
program. It used to be known--I have to throw out these 
acronyms only because otherwise they clog up my brain. It used 
to be known as IHPTET, Integrated High Performance Turbine 
Engine Technology program. The point of IHPTET was to increase 
your thrust to weight. That has been changed to a program 
called VAATE, Versatile Affordable Accelerated Turbine Engine. 
The whole point of VAATE is to get 25 to 30 percent more energy 
efficiency out of our turbine engines, and we are accelerating 
that along with looking at some the core engine technologies to 
give us better energy efficiency, a better capability to 
operate in a high bandpass mode. And the Air Force really looks 
like they are on the verge of making some breakthroughs in 
turbine engines. That would be great for the nation because the 
Air Force is doing this with commercial vendors, our aircraft 
engines, and that would be good for our industry also. So I 
think the Air Force is making some progress, sir.
    Mr. Ortiz. Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. I very much 
appreciate you holding this hearing, and to the gentlemen who 
are testifying today, I think this is one of the most 
important, perhaps one of the most insightful hearings we are 
probably going to have all year.
    A couple of questions, and, of course, this is couched in 
the fact that 80 percent of the energy that is used by our 
Federal Government is used by the Department of Defense. The 
vast majority of that is used for operational activities, and 
94 percent of that is petroleum fuels. So getting this right, 
we have the ability not just to revolutionize the Federal 
Government, but certainly our country, industry and the planet.
    One of the things that struck me was in the report, and 
this is from Mr. Solis, that cited the Department's lack of 
established incentives or a viable funding mechanism for 
investing in the fuel-reduction projects. The Department in its 
official line said they are not convinced that financial 
incentives represents the best strategy to reduce fuel usage.
    When I think about how much money that we are spending on 
contractors, is this something that could be perhaps used under 
existing or future logistics contracts in terms of getting them 
to move towards energy consumption?
    Mr. Solis. Again, I don't know that you need separate 
contracts. I think what we were talking about there in terms of 
like funding mechanism or incentives, first a funding 
mechanism, again, there is nothing--there is not a separate 
line; it mostly, from our view, is mostly supplemental.
    Again, the forward locations now that we are talking about, 
if you do look at the installation side here in CONUS, there 
are a lot of funding mechanisms. There are things in the 
military construction (MILCON) budget that allow for energy 
improvements in terms of looking at how you can get returns on 
investment and save fuel or reduce fuel and energy demands. 
There may be some other means of doing that. I am not sure 
necessarily by contracting you necessarily have to do it, but 
what there has to be certainly is something out there that says 
here are the priorities of the Department, here is what we are 
going to fund, here is how we are going to do it.
    Ms. Giffords. I would be interested in working with members 
of the committee specifically to talk about why it is that we 
have not heard from the Obama administration about implementing 
section 902 from the last Defense Authorization Act, because I 
think having this coordinator could be really a key position 
for us. And so if we could talk later on that, Mr. Chairman.
    Following the lines what was talked about in Mr. Shaffer's 
beginning comments about the ESKIMO spray program, this seems 
to be like a total no-brainer. Obviously it works; what, 40 to 
70 percent conservation or energy reduction. Why is it that we 
are not immediately expanding this to all temporary facilities, 
permanent facilities and even bases here? I come from southern 
Arizona. It gets to be 110, 120 degrees. It seems to me we 
should be using this foam everywhere.
    Mr. Shaffer. Thank you, ma'am. The first answer is, we are 
reinitiating the contract in Iraq and looking to do it, a 
contract, in Afghanistan. So I think that we are cleaning up 
the Central Command (CENTCOM) area of responsibility.
    The other answer is why aren't we doing this everywhere 
here? You know, that is a very good question. Now, there is a 
mechanism to do this, because I have done the return-on-
investment calculations, and these types of things will pay for 
themselves fairly quickly. Under the Energy Conservation 
Investment Program, ECIP, the local base commander has the 
opportunity to work with a commercial firm to go ahead and make 
those changes locally, because at the end of the day, a local 
base commander pretty much owns their base facility. We have 
made the information available to them. We meet in a senior 
energy forum with the leaders of each of the services. I can 
take back specifically your comments to both the Air Force and 
the Army. I don't know if you have any Navy bases in Arizona, 
but I can take it back directly to the Air Force and Army and 
ask that question directly of them.
    [The information referred to can be found in the Appendix 
on page 71.]
    Ms. Giffords. And not just in Arizona; obviously 
everywhere, but specifically in areas that make the most sense, 
even those areas that have a climate similar to Iraq and 
Afghanistan. It seems to me if we get this right here, 
obviously we can deploy that technology more easily.
    And following up, you had talked about the TGER program. 
There is also that transportable hybrid electric power station. 
Solar is big in Arizona. Can you talk about some of the 
successes of that? I understand that there was a program that 
was tested. It was tested at one point, but then during the GAO 
study it was determined that it was not ready for deployment in 
Iraq.
    Mr. Shaffer. Yes, ma'am. The TTHES program, the Tactical 
High Energy--the Tactical Transportable High Energy System 
(TTHES) had some wonderful technology and would have worked 
very, very nicely in a fixed location. When you get to 
packaging it up and taking it apart, the system just didn't 
hold up to the rigors of packaging and deployment.
    So we have the Power Surety Task Force, and, by the way, 
that particular program spun off a four- to five-year 
development program called HI-Power, where we are looking at 
ruggedizing those technologies that we can and getting them out 
as fast at possible.
    The TTHES also gave rise to the Joint Capability Technology 
Demonstration Net-Zero Project, which includes transportable 
and tactical solar powers. And it is fascinating because I have 
seen this whole group come along to where they were just kind 
of almost jury-rigged type of solar panels to now we are almost 
able to roll them out in a fabric. Again, we are not there yet, 
but we are getting very close. And the manufacturing capability 
for solar firms is stepping up to try to give us a more rugged 
and viable capability.
    And if I can go back to one question you asked earlier 
about the spray foaming. We really stumbled upon that, the 
Power Surety Task Force, and deployed it to Fort Irwin. Now, as 
we bring it to Fort Irwin, we are bringing through the 
battalions and brigades that are going over to Iraq. Those 
soldiers and commanders are seeing the value of spray foaming, 
and they are bringing it back to their location. So I think 
this is a technology that will grow because it works.
    Ms. Giffords. One final question, Mr. Chairman. Commander's 
Emergency Response Program (CERP) funds were used in nearly two 
dozen projects in Iraq. Did you have a chance, Mr. Solis, 
during your investigation to determine whether or not they 
worked, either personally or anecdotally? Do we have good 
information about how those dollars unrolled and what type of 
technology exactly was used?
    Mr. Solis. I am sorry, did you say CERP funds? We have done 
some work on that, but I am not familiar with that. I would 
probably have to take that for the record, if I could.
    Ms. Giffords. Mr. Shaffer.
    Mr. Shaffer. Ma'am, I will do the same thing. I will take 
that one for the record because I don't have that data with me.
    [The information referred to can be found in the Appendix 
on page 71.]
    Ms. Giffords. Mr. Chairman, obviously the potential here is 
tremendous, and I just want to make sure that with the new 
administration we are working together to take this 
technology--when you look at the numbers, it is astounding. We 
should be able to make sure that particularly with the solar, 
which is becoming more and more cost-effective, that we are 
putting it in Iraq and Afghanistan and making it as easy to use 
as possible.
    Mr. Ortiz. I appreciate your comments. Sometimes we look at 
ammunition and body armor, but I think this is a very, very 
important issue that we have to address. If you don't have the 
fuel, you can't protect our soldiers by not utilizing the 
airplanes or the helicopters. You are right. This has been 
very, very interesting. But let me yield to the gentleman from 
Maryland Mr. Kratovil.
    Mr. Kratovil. Thank you, Mr. Chairman.
    Mr. Chairman, let me just tell you one of the most 
difficult things getting used to as a former prosecutor is 
waiting to answer these questions. It is always nice when it is 
a smaller group. So thank you.
    Mr. Solis, let me start with you, if I may. I know the 
report gives five recommendations. What we seem to come back to 
throughout these questions is the importance of naming this 
Director of Operational Energy Plans and Programs. I know that 
is not listed. Would you agree that of all the things that we 
could move forward on, that that would be the most significant 
in really making progress on this issue?
    Mr. Solis. I think it is one thing, and we actually did 
make that recommendation in our previous report, but I would 
also mention, as we said in our report, this report, that there 
still needs to be some guidance that is coming down from the 
combatant commanders on down so that people understand what the 
requirements are for forward location not only just in terms of 
saying that it needs to be put in there, but what are the 
construction standards that folks are going to look to, what 
are the living standards? All these kind of things have to be 
part of that guidance that comes down from the combatant 
commander.
    But having said that, there still needs--the Operational 
Director still is an important position that needs to be 
filled.
    Mr. Kratovil. I guess my question is you are talking about 
guidance. My question is where does that guidance come from? 
And I am going to go to that first recommendation.
    Mr. Shaffer, what do you see as the major obstacles, 
practical considerations that are obstacles to carrying out 
that first recommendation in terms of the combatant commanders?
    There was some pushback, and I am asking what are your 
practical objections to it.
    Mr. Shaffer. Let me make sure that I answer the question 
that you wanted to have answered. You wanted to know, sir, 
what, we, the Department, think the first thing that the 
Director of Operational Energy Plans should do to be effective 
in issuing the guidance.
    Mr. Kratovil. No. What I am asking is the first 
recommendation is to direct the combatant commanders in 
consultation with the military service component commands to 
establish requirements for managing fuel demand at forward-
deployed locations within their areas of responsibility. My 
question is do you see any practical problems with that 
recommendation?
    Getting back to sort of where is this guidance coming from?
    Mr. Shaffer. Yes, sir. And I am thinking, because I will 
give you a partial answer, sir, but at the end of the day, this 
is really one that has to go back and be addressed to the 
combatant commanders and the joint staff, because they set the 
operational guidance.
    I think that one of the things that the Department has to 
weigh, and we have weighed this very carefully as we have gone 
forward with the Energy Security Task Force, is there is a 
number of wonderful opportunities out there in the energy 
security realm. But again, and I have said this a couple of 
times, we have to come back to the very first principle of 
energy security. We have been very, very conscious within the 
Department not to rush to deploy something that would cause 
degradation in our operational capabilities or fighting force. 
And I think that that will be part of the dynamic that will go 
out in issuing the guidelines, because it would be very easy 
for someone to say as a combatant commander, thou shalt go out 
and reduce energy consumption by such and such a percentage, 
and make that a directive. But when you are out in an 
operational setting, the commander has to have the flexibility 
to do everything they can to protect our forces.
    So that is going to be a very difficult dynamic, and we are 
going to have to take some time working through that with the 
operational commanders.
    Mr. Kratovil. Mr. Solis.
    Mr. Solis. I am not sure that we would necessarily advocate 
saying that the mission doesn't take precedence. I think what 
we are saying is you need to understand that right now there is 
nothing out there to guide the base commanders on how to deal 
with reducing fuel demands at forward locations. What we have 
talked about today in many cases are individual initiatives 
that base commanders unto themselves sort of take up. But 
again, there is nothing out there in terms of when a unit or a 
commander goes out there and first establishes a base, how do I 
go about doing this in terms of trying to make sure I am 
accomplishing my mission, but also reducing fuel demands?
    And, by the way, I think they go hand in hand, 
particularly, again, as we talk about Afghanistan. You have to 
look at reducing fuel demands because that is going to affect 
how you do your operation. And until that happens, and until 
there is better guidance, I think, that comes down, I think it 
is going to continue to be an issue for the Department until 
they begin to deal with this.
    Mr. Kratovil. Thank you.
    Mr. Ortiz. Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    I am intrigued by this foaming. It has not been deployed 
yet, it is still experimental; is that correct?
    Mr. Shaffer. Dr. Fleming, it actually has been deployed in 
Iraq, and we have got through roughly 50 percent of the total 
amount of tentage that we wanted to foam. The problem we ran 
into was the performance of the contractor. So the Army went 
out and novated that first contract and are looking to 
recompete it. At the end of the day, and I don't have the 
figures with me handy, we can get those to you as part of the 
record, we are foaming a large majority of the tents at 
forward-operating bases in Iraq.
    [The information referred to can be found in the Appendix 
on page 72.]
    Dr. Fleming. Do you foam the entire structure, or is it 
just the tiny openings? And also, when you take the tent down, 
do you just remove the foam, and you can refoam later? How does 
that work?
    Mr. Shaffer. Sir, the process of foaming takes away the 
possibility of taking it down. You actually spray-foam the 
entire tent, and, in fact, we can get some pictures to you. It 
comes in various thicknesses that actually go over the entire 
tent superstructure. You keep, of course, the windows open, the 
doors open, but other than that, the entire tent is foamed.
    Now, again, if you go back to the return on investment, if 
you are going to have tents up in a place for a long period of 
time, the amount of energy you save very, very quickly pays for 
that tent. So it becomes a return on investment, in addition to 
giving your troops a much better environment in which to live.
    Dr. Fleming. It makes a tent more or less disposable then?
    Mr. Shaffer. Yes, sir.
    Dr. Fleming. But, as you say, the cost is offset by the 
energy savings. So that is great.
    With regard to saving energy, that is really what this 
hearing is all about. What is a major impetus for saving 
energy? Is it cost? Is it logistics? Does it make it easier to 
deploy out in the field? What are sort of the, I guess, 
priorities of that strategy?
    Mr. Shaffer. Sir, that is a wonderful question, and it is a 
very complex question, and it is one I am not going to answer 
directly. Energy security is so complex, but everywhere you 
turn, there is a benefit to the Department. And I will give you 
a little anecdote. When we brought the operational goals to 
then-Deputy Secretary England, our first goal said something 
along the lines of, reduce energy use while maintaining 
operational capability. He actually, the Deputy Secretary, 
turned that bullet into saying, increase operational efficiency 
by increasing your energy efficiency. So you actually get 
operational capability enhancement by increasing your energy 
efficiency.
    But you also have force security issues because you don't 
have to have the long convoys. You have operational issues. And 
at the end of the day, energy will affect us strategically also 
with our dealing with other countries, because you have to take 
a look at we have talked a couple of times about Afghanistan: 
What do we have to do strategically in that part of the world 
to make sure that we can continue oil flowing to our troops and 
forces in Afghanistan? And that affects the dynamic of our 
operational capabilities. So what is more important, strategic 
operational capability and lives? Money? They are all very, 
very important.
    Dr. Fleming. One more question. You know, a lot of great 
technologies that we use every day came out of military and 
also space requirements. And so my question is, how much of 
what you are doing is off the shelf, and how much of it is 
still sort of an experimental thing as we go forward?
    Mr. Shaffer. Yes, sir. Most of what we are finding and most 
of what we are developing, with the exception of some of the 
advanced alternative fuels, is really just engineering and 
ruggedizing commercial off-the-shelf products. I talked about 
the generators that the Army is doing a wonderful job fielding 
for us earlier. We are using effectively commercial generators 
being bought from Cummins Corporation in Minnesota. But there 
are certain requirements, ruggedization and shielding 
requirements, so you don't have electromagnetic interference 
that are absolutely vital to military applications. So we are 
taking commercial systems and modifying them or engineering 
them.
    Dr. Fleming. Thank you.
    And thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, and also thank you 
for hosting this hearing and for holding this hearing.
    I want to go back to the Tactical Garbage to Energy 
Program, which, of course, turns garbage into energy. And I 
believe, Mr. Shaffer, that you indicated that there were 
positive results from that program; is that correct?
    Mr. Shaffer. I would say, sir, that they were promising 
results, not necessarily positive results, because it didn't 
work quite as well as we would have wanted it to. But there is 
a very, very good promise of the future as we harden and 
ruggedize the TGER.
    Mr. Johnson. What leads you to take that assessment that it 
is a--it is something that--your word is different from mine, 
but I will say a positive result. I mean, is that fair to say, 
a positive result?
    Mr. Shaffer. Yes, sir.
    Mr. Johnson. But there are some bugs that need to be worked 
out?
    Mr. Shaffer. Yes, sir.
    Mr. Johnson. What are those, by the way?
    Mr. Shaffer. Rather than give you some false information, 
let me take that for the record, sir, because there was, as I 
said, a workshop that was just held less than two weeks ago at 
Aberdeen Proving Grounds where the experts got together, and I 
don't have all the specific information right now. I know that 
it dealt with the amount of time between when the system went 
down, how the system handled dust, steady flow of garbage. But 
let me get the specifics for you, sir, and get that back to 
you.
    Mr. Johnson. All right, please do.
    [The information referred to can be found in the Appendix 
on page 72.]
    Mr. Johnson. Are those two units deployed to Iraq still in 
operation at this time?
    Mr. Shaffer. I do not believe so, but let me verify that 
and get that back to you. I don't know for a fact. I think we 
brought them back home.
    [The information referred to can be found in the Appendix 
on page 72.]
    Mr. Johnson. Was there any way during the time period that 
these units were in use that you were able to determine the 
cost-effectiveness of this program versus leaving it the way 
that it has always been?
    Mr. Shaffer. Sir, I don't know. And again, I will take that 
for the record and get that back to you.
    [The information referred to can be found in the Appendix 
on page 72.]
    Mr. Johnson. Mr. Solis, do you have an opinion on any of 
those questions that I asked?
    Mr. Solis. Again, we looked at a number of these different 
projects, and as we noted, and as Mr. Shaffer noted, a lot of 
these are still in the R&D phase, and more work needs to be 
done in terms of looking at the viability of some of these 
projects or initiatives and technologies before they deploy. 
And that is all I could really offer on it.
    Mr. Johnson. Yes. Do both of you believe that we should 
extend this pilot project, or should we expand it, or should we 
simply ignore it?
    Mr. Shaffer. Sir, as evidenced by the fact that we had a 
fairly significant group of folks get together at Aberdeen 
Proving Grounds, I don't think that we want to abandon this 
project. Even if it doesn't solve the energy issues that we 
face, it will help. Even if it doesn't solve the energy issues 
that we face, the additional force security applications of 
being able to turn trash into oil are pretty significant, 
because right now the only thing that we can do with trash at 
our bases are burn it in a pit, which we don't like to do; hire 
people to carry it away, which increases our force security 
demands; or go ahead and bury it ourselves, which we don't like 
to do. So none of the current options are as good as turning 
some of this garbage into oil. So if we can do it in any way 
that is cost-effective, it would be--it would make no sense not 
to.
    Mr. Johnson. And let me ask this question: Are there plans 
to incorporate renewable battery cell technology into 
Department of Defense's efforts to reduce its reliance upon 
petroleum-based fuels?
    Mr. Shaffer. Yes, sir. The bulk of our work right now in 
renewable batteries and fuel cells are more at the smaller end 
scale, because when we send dismounted infantry out on a long-
duration mission right now, sometimes we are loading those kids 
up with 30 to 40 pounds of batteries. We are focusing on them 
the small end of the batteries right now because that appears 
to be where the technology is most mature. We have some small 
efforts into larger fuel cells and larger batteries for things 
like submarines, but that technology seems to be a little bit 
further off. So right now, sir, we are really focused on the 
dismounted infantry and individual battery end.
    Mr. Johnson. One last question, Mr. Chairman. Since we do 
have what I would consider to be landfills, in other words 
since we do bury our--some of our trash and garbage, that 
begins to break down, and methane gas is formed. Do we have any 
plans to instead of burning off that--instead of burning off 
that methane gas to be able to convert that methane gas into 
energy?
    Mr. Shaffer. I am not aware of any, but let me check on 
that and get back to you. I have not heard of that discussed.
    Mr. Johnson. Thank you.
    [The information referred to can be found in the Appendix 
on page 72.]
    Mr. Ortiz. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Shaffer, I am a Certified Public Accountant by 
background. Would you give me your definition of cost-benefit 
analysis, cost-effectiveness?
    Mr. Shaffer. In the use that I was using it, it is strictly 
a financial thing. It is how much does the thing cost, how much 
can be saved, and how quickly can it pay for itself. So that is 
why you do the cost-benefit analysis, but you also have to keep 
the operational considerations out there separately; how does 
it improve our force structure?
    Mr. Conaway. Does that play a role in the decisionmaking 
process at all?
    Mr. Shaffer. Oh, yes, sir.
    Mr. Conaway. On the foam tent, you said it pays for itself 
within a certain period of time. Does that take into 
consideration the full life cycle of the foam tent? In other 
words, the fact that you have got to haul new tents to the 
battlefield when you move; you have got significant disposal 
issues, I suppose, of that foam and that tent that you wouldn't 
have if you just had the tent and kept moving it around; is 
your concept of cost-benefit analysis the full life cycle of 
the issue?
    Mr. Shaffer. Sir, it would, but understand that most of the 
places that we are foaming right now are fairly fixed forward-
operating bases. They are places where we have folks and have 
had folks for some period of time. So it is not like--and I 
remember this very well when I was on Active Duty. I was in the 
Air Force, but I was assigned to the Army. We would move every 
24 hours. That is not the situation we are finding ourselves 
right now. We are going out in widely dispersed bases, and they 
are setting up for some period of time.
    Mr. Conaway. So the answer is no?
    Mr. Shaffer. The answer is no, sir.
    Mr. Conaway. So the extra hauling it around, extra fuel in 
hauling it over to Iraq and that kind of stuff, that wouldn't 
be figured into in your cost-benefit.
    Where in the system do we decide that the efforts to save 
fuel, as an example, degrades our ability to do the job? Who 
gets to make that decision? And what kind of flexibility do 
they have of not doing the fuel-saving technique because we 
can't get the job done? Where is that decision made?
    Mr. Shaffer. Sir, it is always the operational commander's 
prerogative, and first and foremost in any of this energy 
security stuff, and I go back to what we said, the primary rule 
or principle for energy efficiency and energy security is that 
within the Department it will not come at operational--
degradation of operational capability.
    Mr. Conaway. I appreciate that comment.
    We have talked a lot ad nauseam about this trash-to-fuel 
thing. One of the issues in any fight is the ratio of folks who 
are actually pulling the triggers versus that long line of 
folks behind them that make sure they have all the stuff they 
need. Is the increased supply logistics chain that is driven by 
much of these new things, is that taken into consideration in 
the cost-benefit analysis and whether or not we would deploy 
that?
    Mr. Shaffer. Sir, I don't think we have matured to the 
point where I can give you an answer yes or no. I would say no 
right now. But, you know, right now we are in the process, the 
combatant commander wants the capability, and we do everything 
we can to provide that capability forward.
    Mr. Conaway. Is that something that, as we make these 
decisions, that the system ought to examine? In other words, if 
we can do this whiz bang, eco-friendly deal, but it takes 15 
extra guys to do that, is the decision whether or not to move 
forward with the whiz bang deal, the added people, shouldn't 
that have a piece of the decisionmaking process of the extra 
supply chain that is created by that?
    Mr. Shaffer. Yes, sir. But at the end of the day, those 
decisions would be made by the operationally deployed 
commander. We don't push anything into theater that the 
commander of Central Command or Multinational Force Iraq or 
Multinational Force or Operation Enduring Freedom wants, so it 
is always basically the commander, the operational commander, 
approves everybody coming in and out of their theater of 
operations.
    Mr. Conaway. It is not a far stretch, though, from setting 
these standards to then evaluating that commander against those 
standards and whether or not he or she gets promoted based on 
those kinds of things.
    You missed a couple of evaluation centers. Mr. Taylor came 
up with an idea of some sort of a fuel additive. Are those 
evaluation centers proactive in looking for off-the-shelf new 
stuff that is coming out? We have great confidence in the 
inventors in this country coming up with all kinds of stuff. Do 
they have a piece of what they do? Is somebody trying not to 
miss the obvious and folding that into their system as opposed 
to waiting?
    Mr. Shaffer. Sir, I would like to tell you we are better at 
horizon scanning and technology scouting than we are. The 
bottom line is that most of those people who are doing the 
testing are pretty well fully employed, and we have people out 
looking for technologies. But I won't tell you we are beating 
down the bushes for them. We have more than enough stuff that 
is sent to us already.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Just to follow up a little bit on Mr. Conaway's last 
question, I would guess that you are viewed by the industry out 
there that is creating new technology, trying to make us more 
energy-efficient, as a prime buyer, and that that industry is 
beating down your doors really if they come up with ideas. And 
they are looking for a platform where development of their idea 
might be paid for through tax dollars, and they get to keep the 
patent and then eventually be able to sell to the private 
sector. It just seems to me a no-brainer that they would be 
coming to you. Who do they go to, by the way? Who is it that 
they typically approach?
    Mr. Shaffer. Sir, if it is research and development, they 
will either come in ultimately into my office, or they will 
come into one of the science and technology (S&T) executives of 
the services. So we have S&T execs of each of the services. We 
have my office----
    Mr. Marshall. I would imagine you all receive people with 
open arms in hope that, in fact, they have come up with the 
latest things that will make it much more efficient for us to 
conduct operations.
    Mr. Shaffer. Yes, sir. We try to address every one of those 
that comes in. We have open Web sites, and we also have--
actually we have invested and are in the process of investing 
with the firm called In-Q-Tel. I don't know if you are familiar 
with In-Q-Tel, because some of the special authorities that are 
vested within the Intelligence Community, they can go out and 
do some horizon scanning. We have asked In-Q-Tel to go out for 
us and look for energy solutions.
    So that gets back a little bit to how are we looking for 
other solutions. We are looking using other government agencies 
to help us look where we have limitations ourselves.
    Mr. Marshall. I suppose that is a--just to make sure that 
we have covered everything--a reasonable expenditure. I hope we 
are not spending too much money on that, because it is hard for 
me to believe that any competent person out there developing an 
opportunity in the energy field wouldn't have in mind DOD as a 
possible partner.
    I found myself thinking about operational risks that are 
associated with hauling a whole bunch of fuel out to the front 
and kind of costs associated with that, the fact that personnel 
have to be diverted, et cetera, and how the prospect of 
operational risks of that sort might motivate commanders and 
troops to be more fuel-efficient. And then I found myself being 
fairly skeptical that that wouldn't, in fact, be much 
motivation, just sort of recalling my days in combat and how 
many people were happy to pass on to the next unit the problems 
that they have got today; well, they are coming in here 
tomorrow, yes, we sort of figured it out, but it will be risky 
for us to deal with it, and we will let them figure it out and 
deal with it. And the problem gets passed off from one unit to 
the other unit. And that is not always the case, obviously, but 
it is often the case.
    So I found myself wondering what kind of incentives can you 
put in place that would motivate the individual troop, the 
individual commander to be as energy-efficient as possible. And 
I have the sense that GAO might see some opportunities here 
that perhaps DOD isn't really thrilled about. And if you could, 
Mr. Solis, could you describe what might be a little bit of a 
dispute?
    Mr. Solis. I think, first off, a lot of these bases that we 
are talking about, while they are considered expeditionary, 
like in Djibouti, they have been there now for six years. So I 
think a lot of these--you might understand if it is a small 
forward-operating base that--you maybe have a platoon size or 
even squad size--that people are moving in and out constantly. 
But I think as we think about these things, I think the 
incentives become more important in terms of for the base 
commander to be thinking about what is going to reduce, as you 
mentioned, my operational risk, and what is going to try and 
improve those kind of things, the quality-of-life issues?
    So I think--and what we have seen and what I have seen, is, 
for example, I go back to what I mentioned before in terms of 
what the Navy does with its ships, it provides a funding line 
so that if there are improvements made, that ship, that 
commander can they then apply some of that funding, those 
savings, towards other priorities that the ship has. And I 
think the same kind of thing in terms of looking at for the 
future in terms of what you can do in a forward-deployed 
location, I think those are the same kind of things in terms of 
the incentives that you can think about for the future.
    Mr. Marshall. There is a tension here, of course. If you 
are worried about quality of life for the individual unit and 
members of those units, it seems to me maxing out on the air 
conditioning in some places, for example, or maxing out on the 
heat, or, you know, moving your vehicle quicker rather than 
slower, all of those things are things that all Americans would 
like to do. We keep our thermostat low in the wintertime and 
high in the summertime, and you can imagine a commander, given 
the stresses the troops are under in a particular location, 
preferring to do just the opposite.
    Mr. Solis. I would agree. At the end of the day, as Mr. 
Shaffer said, the operational commander is making the final 
decisions on what the priorities are and what is going to be, 
you know, in terms of what is going to--what improvements are 
you going to make, what are you going to put off, what are my 
mission requirements. And so those things all have to be 
considered.
    But again, as time goes on and these bases remain there, I 
think those are the kinds of things that you are looking for in 
terms of possibly--if you go to Camp Arifjan that was built out 
in the middle of the desert in Kuwait, when they first got 
there, obviously the operational considerations were the first 
and foremost. But as time goes on, as you expand that base, as 
you increase the number of personnel there, other things come 
into play. And I think, again, as you look to Afghanistan where 
you have operational risks, there are other things that come 
into play, such as reducing the number of tankers and the 
number of fuel requirements for your operational needs.
    Mr. Marshall. Mr. Chairman, I appreciate you holding this 
hearing, and frankly I have the suspicion that in the long run 
it is going to be technology that makes the major bites. Some 
process, yes, some incentives, yes, but largely it is going to 
be technological improvements that make the major bites in 
reducing our energy consumption.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    This is for Mr. Shaffer. I understand that each of the 
military departments has established a single senior-level 
official to oversee energy issues, including forward 
operational energy issues within their departments. What role 
does the DOD see these officials playing; not the departments, 
but across departments? Is there some interaction that you all 
are expecting?
    Mr. Shaffer. Sir, I actually had a very hard time hearing 
you with the background noise.
    Mr. Rogers. It is my understanding that each of the 
military departments have established senior officials to 
handle energy issues, including operational energy issues.
    My question is what role does the Department of Defense 
expect those officials to play not only with regard to energy 
issues within their department, but across departments? 
Networking.
    Mr. Shaffer. Sir, I think that is a very good question. I 
will answer it by way of illustration, and this is across the 
Navy, Army and Air Force.
    When the stimulus act, the recovery act was passed, $300 
million was added to the Department of Defense for research and 
development in energy-related products. Now, we could have just 
let each of the services go off on their own and do their own 
thing, but I convened about four different one-hour sessions 
with the senior leaders of each of the services, a session to 
lay out on the table what are we thinking of doing? How can we 
work together to meet the intent of the American Recovery Act, 
but at the same time get the very best we could out for the 
Department of Defense in our operational capability?
    So I look at the senior officials as being partners with 
the Director of Energy--Operational Energy Plans being full 
partners in implementing what should be everybody's vision, and 
that is to increase our energy efficiency so we can increase or 
enhance our operational capability.
    Mr. Rogers. Have they been charged with specific milestones 
or goals or objectives.
    Mr. Shaffer. No, sir, not yet, because the actual clock 
that ticks with the specifics of what is delivered comes after 
the nomination and consent of the Senate, or consent of the 
Congress, for this new position. So right now they have not. 
They have, however, all been very instrumental in working with 
our staff in putting together a strategic plan with our goals.
    Mr. Rogers. I understand that one obstacle with regard to 
the confirmation, but give me a time horizon that you expect to 
see some milestones established and then some goals achieved.
    Mr. Shaffer. I want to say within the statute it is either 
within 60 or 90 days after the Director of Operational Energy 
Plans comes on board. Again, we have--I have kept the task 
force in place to put out a strategic plan. We have that. But 
at the end of the day, I don't want to presuppose or corner the 
new political appointee into a position. That is going to be 
that nominee, his or her responsibility to put in place that 
strategy for the Department. So within 60 to 90 days, sir.
    Mr. Rogers. Thank you.
    That is all I have, Mr. Chairman.
    Mr. Ortiz. Talking about the convoys, I think until we 
develop or come up with new technology, we are going to have to 
continue to do what we are doing now. When we move these 
convoys with fuel from point A to point B, and we are talking 
about contractors that they--we hire contractors, and I am 
assuming that some of them are foreign contractors.
    Mr. Shaffer. I do not know.
    Mr. Ortiz. If I was the owner of a company that owns these 
trucks, and I was going to be moving these convoys, this fuel, 
I think it would be in my best personal interest to have as few 
guards as I could so that I could make more profit. Is there a 
requirement as to how many guards you should have when you move 
those convoys or those trucks?
    Mr. Shaffer. Sir, I will have to take that for the record. 
I do not believe so, but I don't know that for a fact.
    Mr. Ortiz. Because I think someone mentioned--I think it 
was you, Mr. Shaffer, you mentioned about 135 truck drivers 
have been killed. I think this is very, very important, because 
if we are moving all this fuel and all this equipment, and we 
don't require them to have guards at least to protect them. If 
you could come back with us later on, you know, and let us 
know, because I am not too familiar with what the contractors 
do and how they do it, how they move all this stuff, this would 
help me a lot.
    Mr. Shaffer. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Ortiz. We are going to have votes in the next 20 to 30 
minutes, so anybody else has any question at this moment?
    If not, thank you so much. I think that this has been a 
very helpful hearing that we had today, and some of the inputs, 
some of the information that you gave us, and some of the 
witnesses asked very, very interesting questions.
    Mr. Johnson has a question. Go ahead.
    Mr. Johnson. Yes. I am sorry, Mr. Chairman. Thank you.
    Does the Department of Defense have a recycling program in 
place?
    Mr. Shaffer. Yes, sir, I think we do. It is not in my area 
of expertise, so let me go ahead and get the specifics back to 
you because, I mean, you know, we have the bins everywhere. I 
look at it, but I don't know the specifics.
    [The information referred to can be found in the Appendix 
on page 73.]
    Mr. Johnson. Thank you.
    And thank you, Mr. Chairman.
    Mr. Ortiz. Not hearing any other questions, this hearing 
stands adjourned.
    Thank you so much.
    [Whereupon, at 2:54 p.m., the subcommittee was adjourned.]



=======================================================================


                            A P P E N D I X

                             March 3, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 51161.001
    
    [GRAPHIC] [TIFF OMITTED] 51161.002
    
    [GRAPHIC] [TIFF OMITTED] 51161.003
    
    [GRAPHIC] [TIFF OMITTED] 51161.004
    
    [GRAPHIC] [TIFF OMITTED] 51161.005
    
    [GRAPHIC] [TIFF OMITTED] 51161.006
    
    [GRAPHIC] [TIFF OMITTED] 51161.007
    
    [GRAPHIC] [TIFF OMITTED] 51161.008
    
    [GRAPHIC] [TIFF OMITTED] 51161.009
    
    [GRAPHIC] [TIFF OMITTED] 51161.010
    
    [GRAPHIC] [TIFF OMITTED] 51161.011
    
    [GRAPHIC] [TIFF OMITTED] 51161.012
    
    [GRAPHIC] [TIFF OMITTED] 51161.013
    
    [GRAPHIC] [TIFF OMITTED] 51161.014
    
    [GRAPHIC] [TIFF OMITTED] 51161.015
    
    [GRAPHIC] [TIFF OMITTED] 51161.016
    
    [GRAPHIC] [TIFF OMITTED] 51161.017
    
    [GRAPHIC] [TIFF OMITTED] 51161.018
    
    [GRAPHIC] [TIFF OMITTED] 51161.019
    
    [GRAPHIC] [TIFF OMITTED] 51161.020
    
    [GRAPHIC] [TIFF OMITTED] 51161.021
    
    [GRAPHIC] [TIFF OMITTED] 51161.022
    
    [GRAPHIC] [TIFF OMITTED] 51161.023
    
    [GRAPHIC] [TIFF OMITTED] 51161.024
    
    [GRAPHIC] [TIFF OMITTED] 51161.025
    
    [GRAPHIC] [TIFF OMITTED] 51161.026
    
    [GRAPHIC] [TIFF OMITTED] 51161.027
    
    [GRAPHIC] [TIFF OMITTED] 51161.028
    
    [GRAPHIC] [TIFF OMITTED] 51161.029
    
    [GRAPHIC] [TIFF OMITTED] 51161.030
    
    [GRAPHIC] [TIFF OMITTED] 51161.031
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 3, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. ORTIZ

    Mr. Shaffer. The combatant commander has the decision 
authority, in coordination with the Services, in securing lines 
of communication. The Services and the combatant command have 
developed guidelines and policies for the use of private 
security for convoys and they allow subordinate commanders, in 
coordination with national level providers, flexibility in 
meeting mission requirements.
    The Defense Energy Support Center currently accomplishes 
all first destination delivery of fuel in the Central Command 
Area of Responsibility using contractors. Currently, no 
military escorts are provided in Afghanistan. Contractors 
provide varying degrees of convoy security based on their 
assessment of risk. In order to use armed private security 
companies, contractors must submit security plans and receive 
approval from Combined Joint Task Force 101 through the Defense 
Logistics Agency and Central Command in accordance with the 
current policy on the use of armed contractors. There is no set 
number of escorts for contractor provided security.
    Military escorts are provided to convoys operating inside 
of Iraq and the number varies based on the overall insurgent 
threat. [See page 31.]
                                ------                                


             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Shaffer. On a base or in a region, minimizing the 
amount of fuel used without affecting operational capability is 
the responsibility of the Commander. The Department has 
improved training future commanders to include fuel in their 
decision-making process by recently incorporating energy 
considerations into wargames.
    Within the DoD, we estimate that about 68 million gallons 
of fuel are used each month in Iraq and Afghanistan. You asked 
if we can quantify how the 26 million gallons of fuel consumed 
each month in generators is partitioned among functions such as 
providing hot water. Unfortunately, the short answer is that we 
don't have this capability. We find no factual data or 
capability to measure the amount of energy that is allocated to 
heating water, or for partition of fuel usage among the variety 
of functions for which generators are used. [See page 13.]
    Mr. Shaffer. The Department does measure overall 
consumption at forward-deployed locations, but does not 
currently have the capability to delineate energy use by 
function. We have confirmed with the Army Petroleum Center that 
there is no data available to confirm the percentage of energy 
used to heat water but to do so would take quite a bit of 
excess measurement equipment. We agree that it would be useful 
to have a finer breakdown of fuel usage at these locations. 
[See page 14.]
                                ------                                


            RESPONSES TO QUESTIONS SUBMITTED BY MS. GIFFORDS

    Mr. Shaffer. You wanted us to find out why we are not 
expanding the use of spray-foam in hot weather areas like 
Arizona. Spray-foam insulation is a proven way to reduce 
demand. It is safe (national, state and EPA certified), and has 
been used in the U.S. construction industry for decades. 
Expanding the use would require funds from one of several 
potential sources, depending upon the circumstances--operation 
and maintenance (O&M) or Energy Conservation Investment Program 
(ECIP). Each has some limitations. A request to produce and 
install spray-foam insulation with O&M funds would need to 
compete with other training and operations funding 
requirements. ECIP could work but the requirements for measure 
and validation and large documentation trail makes use of ECIP 
funds slow. These types of projects are not funded centrally, 
so greater use will take time. As we show clear savings 
potential, I anticipate greater use. [See page 20.]
    Mr. Shaffer. The feedback within in DoD concerning benefits 
of the Commander's Emergency Response Program (CERP) is 
consistent with last summer's findings of the GAO (GAO-08-736R 
Military Operations).
    Multiple commanders told the GAO that they feel the 
Commander's Emergency Response Program is effective. However 
their opinions are anecdotal because there are no definitive 
performance indicators.
    Some commanders informally tracked direct fire attack, 
indirect fire attack, and use of improvised explosive devices 
in the vicinity of CERP projects. Those that tracked these 
items felt attacks usually decreased. Again anecdotally, 
commanders reported a sense of greater cooperation from the 
nearby Iraqi people. Nonetheless there is no certainty that the 
positive changes in behavior of the local population, if real, 
were a direct consequence of the CERP projects. Nor that the 
behavior will be sustained.
    We have helpful information about the dollars and 
information giving insight into CERP projects. The Iraq 
Reconstruction Management System tracks relief and 
reconstruction projects in Iraq. It reflects hundreds of CERP 
projects whose total cost is on the order of $3 billion. The 
most usual order of magnitude of the cost of individual 
projects ranges from $1 thousand to $10 million.
    You asked about CERP project involving technology. 
Searching the IRMS for electricity projects reveals hundreds of 
projects, each with a title and geographic location. We have 
included the websites below:

    GAO report: http://www.gao.gov/new.items/d08736r.pdf
    The Iraq Reconstruction Management System (http://
www.sigir.mil/reports/pdf/ audits/08-021.pdf) is intended to 
track relief & reconstruction projects in Iraq. [See page 21.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY DR. FLEMING

    Mr. Shaffer. The original $95 million spray-foam contract 
in Iraq was written to spray-foam 9.5 million sq ft (base year) 
with two options for 2 million sq ft each. The Government 
terminated the contract for the convenience of the Government. 
Changing of Government priorities caused several delays and the 
colder, wetter weather was a further reason for the 
termination. Although the proper foam formulation can be 
sprayed in freezing weather, only a ``summer formula'' was 
shipped to Iraq. The Government wanted to wait until the 
colder, wetter weather was past to resume foaming operations. 
The Government has already sent the vendor intent to re-start 
foaming operations to consume the supplies that have been 
purchased and shipped. The exact start date is still to be 
determined. [See page 23.]
                                ------                                


            RESPONSES TO QUESTIONS SUBMITTED BY MR. JOHNSON

    Mr. Shaffer. TGER was an early proof-of-principle 
prototype, not a mature or deployable system. Consequently it 
was not surprising that there were many ``bugs'' identified in 
real-world testing. When the TGER worked, it worked well--
considering it was not a fully optimized system. Unfortunately, 
for numerous reasons, there was more down-time than mission 
time. The TGER prototype deployment was a success when measured 
against the intended goals. However, there remain significant 
technological challenges to fielding a reliable, maintainable 
tactical garbage-to-energy system. In the end, we believe 
waste-to-energy offers potential for installations, FOBs, and 
tactical forces but additional work is required to ensure we 
are meeting true user needs, particularly for the tactical 
forces. [See page 24.]
    Mr. Shaffer. The two TGER units are not in operation at 
this time. They were deployed in Iraq from May to August 2008 
for a 90-day evaluation. [See page 25.]
    Mr. Shaffer. The TGER deployment was a prototype contract. 
Determining cost effectiveness of the TGER prototype was not a 
major goal of the 2008 deployment; obtaining a solid cost 
estimate will require further maturation and testing. [See page 
25.]
    Mr. Shaffer. The Department continuously investigates the 
economic viability of multiple renewable energy sources. 
Landfill gas (LFG), a form of renewable thermal energy, can be 
among the most cost effective, but project cost is directly 
proportional to the distance between the gas source and the 
point of consumption. The Energy Policy Act (EPAct) of 2005, 
section 203 defines ``renewable energy'' as ``electric energy 
generated from solar, wind, biomass, landfill gas, ocean 
(including tidal, wave, current, and thermal), geothermal, 
municipal solid waste, or new hydroelectric generation capacity 
achieved from increased efficiency or additions of new capacity 
at an existing hydroelectric project.'' Under this definition, 
landfill gas that is not converted to electricity, does not 
count toward the Department's EPAct 2005 renewable energy goal, 
lessening the incentive to pursue such projects. The project 
economics of converting landfill gas to electricity are less 
often viable, but that is not always the case. There are a 
handful of such projects supporting DoD:

    <bullet> LHill AFB, UT--2.3 MW electrical generation plant 
constructed through an Energy Savings Performance Contract 
(ESPC) in January 2005 using LFG from an offbase source.

    <bullet> LFort Huachuca, AZ & Fort Knox, KY--commercially 
purchases electricity from landfill gas plants

    <bullet> LFort Sill, OK--pursuing a 3-4 MW electrical 
generation plant through an ESPC.

    <bullet> LMCAS Miramar, CA--pursuing expansion of an 
existing plant that supplies electricity to San Diego Gas and 
Electric. The expansion would generate 3 MW directly for the 
installation.

    <bullet> LMCLB Albany, GA--pursuing 1.6 MW of electrical 
generation from an off-base landfill through an ESPC.

    <bullet> LNavy Region Hawaii--pursuing a privately owned 
1.5 MW landfill gas project at the Pacific Missile Range 
Facility on Kauai.

    Finally, the opportunity to do projects on military 
installations using LFG produced by on-base sources is limited 
as we primarily rely on off-base municipal landfills for waste 
disposal and our older military owned landfills do not 
generally produce adequate methane. However, the Department is 
pursuing RDT&E projects aimed at utilizing waste streams at 
forward operating locations. As some of the projects develop, 
there is a distinct possibility of adapting them to fixed 
installations as well. [See page 26.]
    Mr. Shaffer. The Department of Defense has a long history 
of recycling. In 1972, the Defense Property Disposal Service 
(DPDS) was established to centralize surplus property disposal 
and Defense Property Disposal Offices (DPDO) were located 
worldwide on or near a military installation. Then in 1976, DoD 
issued solid waste management procedures governing the sales of 
recyclable materials. Seven years later, DPDS initiated their 
Resource Recovery and Recycling Program which allowed 
installations around the world to participate in a disposal and 
recycling program where they would receive proceeds from the 
sale of recyclable materials they generated. These regional 
facilities are now called the Defense Reutilization and 
Marketing Offices.
    The DoD's recycling program further developed under DoD 
Instruction 4715.4, ``Pollution Prevention,'' June 18, 1996. 
This DoD Instruction requires DoD Components establish 
procedures for a cost-effective waste reduction and recycling 
program. Several Executive Orders through the years have 
reinforced our commitment to maximize our recycling 
opportunities. They were combined into Executive Order 13423 
(2007) which encourages all Federal agencies to increase 
diversion of solid waste and maintain cost-effective recycling 
programs. In 1992, DoD recycled 0.5 million tons of waste 
material. In 2008, the DoD Components recycled over 4.3 million 
tons which is a 65% recycling rate of the solid waste 
generated. This surpasses the Environmental Protection Agency's 
national recycling goal of 35%.
    We also issued an integrated solid waste management policy 
in 2008. Under this policy, installation solid waste and 
recycling managers must make every effort to maximize non-
hazardous solid waste diversion to optimize reduction in both 
the volume of solid waste disposed and overall cost of non-
hazardous solid waste management. This requires a thorough 
understanding of the composition of the waste stream, available 
options for waste diversion or disposal, and associated costs 
(or costs avoided). Today many installations have their own 
recycling program and continue to work with the Defense 
Reutilization and Marketing Offices to develop opportunities 
for further solid waste diversion from landfills. [See page 
31.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 3, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. The American Recovery and Reinvestment Act of 2009 
provides $300 million to the Department of Defense for energy research 
and development projects. This funding can be used for projects that 
impact energy use for military installations or for operational forces. 
In your view, should greater priority be given to projects that benefit 
operational forces or installations? Please provide a list of the 
investments to be made with the $300 million provided in the American 
Recovery and Reinvestment Act of 2009 that will address operational 
energy use generally, and a list of investments that will address 
energy use at forward deployed locations specifically. In addition, 
your testimony states that the fiscal year 2009 request included $1.3 
billion for energy-related projects. For the record, please provide us 
with a summary of projects included in that estimate and their funding 
allocations.
    Mr. Shaffer. Consistent with the intent of the American Recovery 
and Reinvestment Act of 2009, the Department developed a balanced 
investment portfolio for the $300 million added investment in Energy 
R&D. We did not specifically prioritize the investment for operational 
or installation projects, but rather sought a balance that seeks to 
meet the needs of the Department in both areas. We sought projects that 
can benefit the Department and obligate funds expeditiously. The list 
of projects is attached.
    [The list of projects is retained in the committee files and can be 
viewed upon request.]
    Mr. Ortiz. DOD initiated a pilot program in 2007 to determine the 
fully burdened cost of fuel for three weapon systems. What is the 
status of the pilot program and what types of benefits, challenges, and 
lessons learned has DOD collected based on the pilot program? Is the 
Department on track to meet the implementation timeline of three years 
required by the 2009 defense authorization act? Has the Department 
undertaken any estimates of the fully burdened cost of fuel delivery in 
Iraq or Afghanistan? If so, what were the results?
    Mr. Shaffer. In 2007, the Department commissioned a study of the 
three pilot programs for the purpose of developing guidance for how 
future acquisition programs should apply the fully burdened cost of 
fuel. The study examined the types of trade analyses that could be 
conducted, how energy considerations are represented, and how the use 
of the Fully Burdened Cost of Fuel (FBCF) could be applied to 
acquisition decisions.
    The study identified a number of challenges and lessons learned. 
For example, there is currently no analytical organization within the 
Department, within either OSD or the Services, with all the data or 
tools necessary to calculate the FBCF based on scenario-specific 
wartime requirements. Further, because DOD acquisition costing 
methodologies have been based for decades on peacetime assumptions, 
calculating FBCF to include wartime ``tail'' cost factors is 
challenging. The pilot study did lead to a recommendation against 
assigning the responsibility to individual programs offices because of 
the need for methodological consistency and common data sources across 
programs. The study did confirm that the FBCF ``number'' will usually 
vary by program, to reflect the varying demand for fuel logistics for 
each individual platform (i.e. each acquisition program).
    The first program to apply fully burdened cost of fuel will be the 
Joint Lightweight Tactical Vehicle (JLTV) Program. The Analysis of 
Alternatives (AoA) guidance developed by the Director, Program Analysis 
and Evaluation and approved by the USD(AT&L) required the development 
and use of the FBCF. The JLTV study team is building their approach 
into their AoA study plan, and the Army is considering how best to 
organize to support the requirement to calculate the FBCF. The 
Departments of the Navy and the Air Force have formed task forces to 
develop implementation plans for the FBCF.
    Based on progress to date, the Department is on track to achieve 
the three year implementation deadline established by law. As new AoAs 
and programs are established, they will be required to develop and 
apply FBCF estimates in their program AoAs.
    Mr. Ortiz. According to GAO's report, DOD plans to begin procuring 
new fuel-efficient generators in 2010. Is this too late to deploy these 
units as a part of the buildup in Afghanistan? What steps will DOD take 
to ensure that the new fuel-efficient generators are deployed to 
locations, such as Afghanistan, where DOD would benefit the most from 
reducing its high fuel demand?
    Mr. Shaffer. The Department of Army expects to deploy Advanced 
Medium Mobile Power Sources (AMMPS) as part of the build up in 
Afghanistan by 2011. AMMPS will be fielded in accordance with Army 
fielding priorities and deploying units will be first to be equipped 
with AMMPS.
    Mr. Ortiz. DOD concurred with GAO's recommendation that the Joint 
Staff incorporate fuel demand considerations into its initiative to 
develop joint living standards at forward-deployed locations. Please 
elaborate on what steps DOD intends to take to ensure that fuel demand 
is appropriately considered in this effort.
    Mr. Shaffer. DOD reduced the demand for fuel at selected forward 
area bases by applying insulating spray foam to the outside of the 
tents. This foam reduces the amount of energy required for heating and 
air conditioning by 40 to 70 percent. We are also developing a ``smart 
micro grid'' for use in forward area bases which will generate only the 
power required at any given time, as opposed to generators running 
constantly at less than optimal efficiency. For new procurement, the 
Department will use the fully burdened cost of fuel (the cost of the 
fuel and the cost to deliver it to the forward area bases) in life 
cycle cost estimates. These estimates will be a component of the Energy 
Efficiency Key Performance Parameter for major systems. These measures 
should reduce the number of fuel convoys required and reduce the force 
protection requirement. Ultimately, these considerations have been--and 
will continue to be--injected into the Senior Warfighter (SWarF) Joint 
Standards of Life Support and standing Joint Expeditionary Basing-
Working Group (JEB-WG) deliberations. Ultimately, the team will balance 
fuel demand implications of any new standard applied to forward 
deployed locations if the new standard drives an increased power load 
(and subsequently fuel requirements).
    Mr. Ortiz. GAO's report provides fuel usage profiles at several 
individual forward-deployed locations. The data show that large amounts 
of fuel are being consumed for base support functions, such as air 
conditioning or refrigeration, as well as for ground and air missions. 
However, the GAO report also notes that locations collected and 
categorized their fuel usage differently, which places limitations on 
the utility of the data. How does DOD intend to address the issue of 
measuring fuel consumption at its forward-deployed locations to ensure 
that consistent, accurate data are collected and reviewed to inform 
energy policy decisions while at the same time ensuring that base 
commanders and service members are focused on meeting mission 
requirements? What efforts has DOD made to develop methods to 
automatically measure fuel consumption at forward-deployed locations so 
that information can be quickly and consistently collected and relayed 
to the department?
    Mr. Shaffer. The Services and DOD do measure overall consumption at 
a forward-deployed location, but do not currently delineate between 
base support consumption and weapon system/vehicle consumption. The 
current daily average for energy usage in Iraq for petroleum products 
is 1.3M US gallons of jet fuel; 396,000 US gallons of diesel; and 
90,000 US gallons of motor gasoline.
    The Defense Energy Support Center observation concerning policies 
for fuel usage at each individual forward-deployed location varies 
based upon operations being conducted and types of equipment being used 
or supported. The DOD agrees that managing fuel demand in addition to 
requirement generation should become a consideration in forward-
deployed location sustainability. However, DOD believes the combatant 
commander must be the decision authority for when reduction efforts 
begin being tracked and what conservation measures are employed in 
order to avoid detraction from tactical operations. We believe the 
Services and Combatant Commands should develop the guidelines that 
address energy efficiency considerations in base construction, 
maintenance, and procurement policies. It is our experience that 
guidelines regarding policy will be general in nature and allow 
combatant commanders flexibility. We do, however, support the 
initiative to have the fuel demand considerations and requirements be 
incorporated into the development of joint standards of life support at 
both fixed and forward-deployed locations. An accounting procedure will 
be developed in coordination with the services that is suitable for a 
deployed environment.
    Mr. Ortiz. Why should DOD focus its attention on fuel demand at 
forward-deployed locations that are not permanent, such as those in 
Iraq or Afghanistan? Would the department make more effective use of 
its resources by focusing on permanent locations?
    Mr. Solis. While we recognize that base commanders must place their 
highest priority on meeting mission requirements and that it may not be 
practical for DOD to decrease fuel usage at every forward-deployed 
location, DOD faces high costs, operational vulnerabilities, and 
logistical burdens in sustaining forward-deployed locations, such as 
those in Iraq and Afghanistan, that depend heavily on fuel-consuming 
generators. For current operations, DOD's long truck convoys moving 
fuel to forward-deployed locations have encountered enemy attacks, 
severe weather, traffic accidents, and pilferage. Furthermore, the 
ongoing Global War on Terrorism may require DOD to sustain many of its 
forward-deployed locations supporting current operations for longer 
than initially anticipated. For example, during our visit to Djibouti, 
Navy officials referred to Camp Lemonier as an ``expeditionary'' camp 
even though it had been existence for about 6 years at that time. In 
October 2008, Camp Lemonier was transferred under the newly established 
Africa Command, which suggests that the camp will endure for the 
foreseeable future. In the case of Afghanistan, DOD may need to 
establish new forward-deployed locations or enhance existing ones as it 
increases troop levels in that country. Factoring fuel demand 
considerations into decision-making processes as forward-deployed 
locations are established and maintained could help DOD achieve its 
goals of reducing its reliance on petroleum-based fuel, the risks 
associated with delivering large amounts of fuel to its forward-
deployed locations, and operational costs.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. According to a January 26th ``Stars and Stripes'' 
article, ``American forces have long relied'' on solar technology to 
power Iraqi streetlights and now use solar panels to power medical 
clinics and sewage pumps. We have used CERP funds to install solar 
arrays in Iraq including nearly two dozen in Baghdad alone. Are we 
utilizing similar arrays at our forward locations?
    Mr. Shaffer. Some forward operating base (FOB) locations do have 
some solar street lights installed; this meets the lighting 
requirements of the area where there is no power grid as well as 
reducing the overall power requirements. However, Army Central Command 
is not aware of any large scale installations of solar power systems in 
any of our FOBs. Because the FOBs are not enduring, they are focused on 
meeting the power requirements for operational needs. The cost of 
purchasing, installing and maintaining a solar system makes it 
unfeasible for non-enduring types of installations. Plus, in areas 
where the enemy is lobbing mortar shells into the compound, one mortar 
shell in a field of solar panels could damage very expensive solar 
panels. There are no solar streetlights or large-scale solar projects 
installed in Afghanistan. Again, because of the high initial cost and 
temporary nature of the FOBs, Army Central Command does not think there 
will be a large installation of solar technology at FOBs.
    Ms. Giffords. According to the GAO Report, the Net Zero Plus Joint 
Capability Technology Demonstrator will be demonstrated over a 3-year 
period. Can you go into additional detail about the demonstration 
project and will it be conducted in-theater?
    Mr. Shaffer. The Net-Zero Plus (NZP) Joint Capability Technology 
Demonstration (JCTD) provides improved energy efficiency to forward 
operating bases (FOB), thus reducing loss of life to hostile fire 
incurred during current fuel delivery operations. It achieves these 
energy efficiencies by leveraging energy technologies to provide 
efficient structures, alternative power generation and smart 
distribution systems for a Forward Operating Base.
    The capabilities/technologies that the NZP JCTD will demonstrate 
are:

    1)  Energy Efficient Structures--external applied insulation 
referred to as ``Eskimo'' as well as non-permanent, lightweight and 
transportable structures incorporating energy efficient materials and 
technology.

    2)  U.S. Marine Corps developed Deployable & Renewable Energy 
Alternative Module (DREAM)--a tactical deployable system using solar 
power.

    3)  Pyrolysis Waste Disposal System--a thermal, deployable, 
destruction of waste with energy recovery.

    4)  Smart power distribution using the Defense Logistics Agency 
(DLA) developed Electronic Power Control and Conditioning unit.

    Each technology will be assessed for a 12-18 month period at the 
U.S. Army National Training Center (NTC), Ft. Irwin, CA during the 
period from Oct. 2008 to Sept. 2010. The NZP JCTD is not conducting 
capability demonstrations in the U.S. Central Command theater, but is 
instead using the NTC because it replicates the current theater of 
operation without placing risk on warfighter operations.
    The Operational Sponsor is U.S. Central Command. The lead service 
is the U.S. Army. The planned completion will be in Fiscal Year 2010.
    Ms. Giffords. According to a January 26th ``Stars and Stripes'' 
article, ``American forces have long relied'' on solar technology to 
power Iraqi streetlights and now use solar panels to power medical 
clinics and sewage pumps. We have used CERP funds to install solar 
arrays in Iraq including nearly two dozen in Baghdad alone. Did you 
have an opportunity during your investigations to examine any of these 
projects either in person or anecdotally?
    Mr. Solis. While our report highlights several efforts under way or 
planned by DOD components to reduce fuel demand at forward-deployed 
locations, we did not specifically review solar technology efforts 
funded by the Commander's Emergency Response Program (CERP). DOD funded 
three solar-related projects in Iraq in 2008 using CERP--specifically, 
$165,000 to provide a Baghdad clinic with solar power, $3.7 million for 
solar power street lamps in Baghdad, and $5.8 million for solar lights 
in Fallujah--but we did not evaluate these projects. However, GAO has 
conducted prior work on other aspects of CERP. In June 2008, for 
example, we reported on the extent to which DOD has established 
selection criteria, coordinates with other U.S. Government agencies and 
with the government of Iraq, and exercises oversight of CERP projects 
in Iraq (see GAO-08-736R). Our work found, for example, that DOD has 
broad selection criteria for CERP projects, which gives significant 
discretion to commanders in determining the types of projects to 
undertake. Thus, it is important that DOD and commanders at all levels 
have the information needed to determine whether projects are meeting 
the intent of the program, assess program outcomes, and be better 
informed about their funding requests. In addition, we have reported on 
U.S. efforts to rebuild Iraq's electricity sector as part of its 
reconstruction projects, most recently in March 2009 (see GAO-09-
294SP). Restoring the electrical infrastructure is critical to reviving 
the Iraqi economy and ensuring productivity of the oil sector; however, 
demand has grown substantially and continues to outstrip capacity. For 
2008, supply met around 52 percent of demand, even with increased 
electrical power generation. As a result, Iraq continues to experience 
electrical shutdowns despite billions of dollars invested. According to 
the State Department, at the end of November 2005, average hours of 
power per day were 8.7 hours in Baghdad and 12.6 hours nationwide; by 
the end of November 2008, Baghdad averaged 15.4 hours and the rest of 
the country averaged 14.6 hours. The Iraqi Ministry of Electricity 
estimated in its 2006-2015 plan that it would need $27 billion over the 
next 6 to 10 years to provide reliable electricity across Iraq by 2015. 
However, U.S. Government officials working with the ministry estimate 
twice that amount will be needed for power generation, transmission, 
distribution, and other infrastructure. Based on U.S. and United 
Nations reporting, inadequate operating and maintenance practices, as 
well as the lack of skilled technicians, inhibit an effective 
electrical infrastructure.
    Ms. Giffords. Your study seems to indicate that there is a 
coordination problem within the Department and across the services on 
managing Operational Energy. If the Administration appointed a Director 
of Operational Energy Plans & Programs and fully implemented Section 
902 from last year's Defense Authorization Act, do you believe that 
could solve some, or even all, of the coordination problem?
    Mr. Solis. In meeting the requirements of the Duncan Hunter 
National Defense Authorization Act for Fiscal Year 2009 to establish a 
Director of Operational Energy Plans and Programs and an operational 
energy strategy, we believe that DOD has an opportunity to improve 
communication and coordination of fuel reduction efforts at forward-
deployed locations as well as establish visibility and accountability 
for fuel demand management. Furthermore, a director of operational 
energy would provide DOD with an executive-level official who sets the 
direction, pace, and tone to reduce operational energy demand across 
the department. While DOD components have efforts under way or planned 
that show potential for achieving greater fuel efficiency, we found 
that DOD faces difficulty achieving its goals to reduce its reliance on 
petroleum-based fuel and minimize the logistics ``footprint'' because 
managing fuel demand at forward-deployed locations has not been a 
departmental priority and its fuel reduction efforts have not been well 
coordinated or comprehensive. Specifically, we found that information 
on fuel demand management strategies and reduction efforts is not 
shared among forward-deployed locations, military services, and across 
the department in a consistent manner. As our report noted, DOD 
guidance does not designate any DOD office or official as being 
responsible for fuel demand management at forward-deployed locations, 
and we could not identify anyone who is specifically accountable for 
this function through our interviews with various DOD and military 
service offices. Without establishing visibility and accountability 
over fuel demand management at forward-deployed locations, DOD is not 
well positioned to address the shortcomings we identified in our 
report--including the lack of fuel reduction guidance, incentives, and 
a viable funding mechanism for initiatives to decrease demand. Thus, 
DOD cannot be assured that good fuel reduction practices are 
identified, shared, prioritized, resourced, implemented, and 
institutionalized across locations in order to reduce the costs and 
risks associated with high fuel demand.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. In your prepared testimony, you note the Air Force has 
initiated a biomass-derived aviation fuel certification program. Can 
you provide further details regarding this Air Force initiative to test 
Algae and other bio-mass energy feedstocks? Do the other Services 
(Army, Navy, Marines, Coast Guard) have similar programs to certify 
algae and biomass-derived synthetic fuels?
    Mr. Shaffer. The Air Force is conducting research and development 
on alternative fuels produced from biomass. The Air Force has obtained 
samples produced by industry and academia, as well as test samples 
produced as part of the Defense Advanced Research Projects Agency's 
research program. As a follow-on to first generation certification of 
synthetic fuels derived via the Fischer Tropsch process, the most 
promising second generation biomass candidates are fats and oils that 
are hydroprocessed into a hydrotreated renewable jet (HRJ) fuel; 
samples of which have been produced from algae, seed crops, and animal 
waste. The Air Force has also worked with the commercial airline 
industry, Boeing, and biomass fuel producer UOP [Universal Oil 
Products] to analyze HRJ/petroleum fuel blends used in recent flight 
demonstrations by Continental Airlines and Japan Airlines; a small 
portion of these fuels was derived from algae oil. HRJ fuels are 
chemically similar to the Fischer Tropsch-derived synthetic kerosene 
fuels currently undergoing certification by the Air Force and lessons 
learned from these certification efforts should streamline HRJ fuels 
certification. In addition, the Air Force is also analyzing third 
generation biofuels produced from halophytes, cellulosic material, and 
waste products. The technology to produce fuels from these resources is 
less mature than the fats and oils used to produce HRJ fuels, but these 
feedstocks offer significant promise in terms of availability and cost.
    The Air Force is planning to conduct a flight demonstration 
``pathfinder'' test as the first step in the certification process of 
HRJ fuels. The current plan is to competitively procure two biomass 
candidates and conduct a comprehensive evaluation to make sure they are 
fit-for-purpose for use in military aircraft. Once the chemical and 
physical similarity to petroleum-derived fuels is assured, the flight 
test program will start. In addition, the Air Force is conducting 
analyses of alternative fuels to determine their life cycle greenhouse 
gas footprint from ``field to wake,'' is collaborating with the U.S. 
Department of Agriculture to assure sustainability, and is evaluating 
the potential for commercial production and estimating costs.
    To the best of our knowledge, the Army, Navy, and Coast Guard have 
not initiated biomass-derived certification programs at this time. The 
Air Force is collaborating with its sister Services on the 
opportunities to jointly certify common platforms for alternative fuel 
use.

                                  <all>

</pre></body></html>
